APPENDIX

1a
APPENDIX A
PRECEDENTIAL
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________
No. 20-1091
___________
MICHAEL SIMKO,
Appellant
v.
UNITED STATES STEEL CORP
_________________________________________
On Appeal from the United States District Court
for the Western District of Pennsylvania
(District Court No.: 2:19-cv-0075)
District Judge: Honorable Joy Flowers Conti
___________________________________________
Argued September 24, 2020
(Filed March 29, 2021)
Before McKEE,
Judges.

JORDAN and RENDELL, Circuit
*

*

*

*

OPINION
RENDELL, Circuit Judge.
In this employment discrimination case, Michael
Simko asserts one claim of retaliation against his
former employer, United States Steel Corp., under

2a
the Americans with Disabilities Act (“ADA”), 42
U.S.C. § 12101 et seq. Simko alleges that in August
2014 he was discharged in retaliation for filing an
administrative charge of disability discrimination
with
the
Equal
Employment
Opportunity
Commission (“EEOC”) approximately fifteen months
earlier. Simko’s original charge—which alleged that
U.S. Steel disqualified him for another position on
the basis of his hearing disability—was timely filed.
But he never filed a timely charge of retaliation that
formed the basis for his complaint before the District
Court. The District Court held that the later claim of
retaliation was not encompassed within the earlier
charge, and, therefore, that his failure to file a timely
retaliation charge was fatal. Accordingly, the District
Court dismissed his complaint for failure to exhaust
administrative remedies. We will affirm.
I.

BACKGROUND1
A. Simko’s Original
Discharge

Charge

and

Initial

Simko, who suffers from hearing loss, began
working for U.S. Steel in August 2005. In August
2012, while he was employed as a Larryman in the
1
The facts are drawn from Simko’s complaint and exhibits
to the parties’ briefs in support of, and opposition to, U.S. Steel’s
motion to dismiss. In reviewing a dismissal under Federal Rule
of Civil Procedure 12(b)(6), we “must consider only the
complaint, exhibits attached to the complaint, matters of public
record, as well as undisputedly authentic documents if the
complainant’s claims are based upon these documents.” Mayer
v. Belichick, 605 F.3d 223, 230 (3d Cir. 2010); see also Levins v.
Healthcare Revenue Recovery Grp. LLC, 902 F.3d 274, 279 (3d
Cir. 2018). The parties have not disputed the authenticity of any
documents in the record.

3a
Blast Furnace Department of the U.S. Steel plant in
Braddock, Pennsylvania, he successfully bid on an
open position as Spellman in the Transportation
Department. During training for the position, Simko
requested a new two-way radio from a
Transportation
Department
supervisor
to
accommodate his hearing impairment, but U.S. Steel
did not provide the new radio or any other
accommodation. Although Simko completed the
Spellman training, he alleges that his trainer refused
to approve his completion of the training and “sign
off” that he was able to perform the Spellman duties
because of his disability. App 33. Having failed to
secure the Spellman position, Simko resumed
working as a Larryman in the Blast Furnace
Department.
On May 24, 2013, Simko signed an EEOC charge
alleging violations of the ADA against U.S. Steel. The
only box checked on the original charge was for
“[d]iscrimination based on . . . disability.” App. 33.
Specifically, Simko asserted that U.S. Steel
discriminated against him by denying him the
Spellman position and denying his request for an
accommodation. Simko also alleged in the charge
that he was later “subjected to negative comments
from other employees regarding my impairment,”
including one instance in which the “Walking Boss”
told him that “[i]f I couldn’t hear, I must be disabled
and should not work anywhere in the plant.” App. 34.
The EEOC received the charge on May 28, 2013. By
letter dated August 7, 2013 to the EEOC, a U.S. Steel
Labor Relations official denied Simko’s allegations of
discrimination. The EEOC did not take any action to

4a
investigate the charge or U.S Steel’s August 7, 2013
letter.
On December 30, 2013—while Simko’s charge
was still pending—U.S. Steel discharged Simko after
an incident in which a car he was operating lost
power. Approximately five months later, on May 27,
2014, Simko entered into a “last chance agreement”
with U.S. Steel and his union providing for his
reinstatement. Simko returned to work under the
last chance agreement on June 1, 2014, but he was
discharged again on August 19, 20142—this time,
based on a safety violation. Although Simko grieved
the discharge through his union, the union later
withdrew the grievance.
B. The November 2014 Correspondence
On November 14, 2014,3 approximately three
months after Simko’s final discharge from U.S. Steel,
the EEOC received an undated handwritten letter
and set of documents from Simko (“November 2014
correspondence”).
The
November
2014
correspondence comprised 14 pages, including what
appears to be Simko’s handwritten notes regarding a
union hearing on the violation of his last chance
agreement, a copy of his last chance agreement,
copies of safety incident reports, and, in the final
Simko initially received a five-day suspension, which was
ultimately converted to a discharge.
2

Simko and the EEOC allege that the EEOC received the
November 2014 correspondence on November 14, 2014. Because
U.S. Steel does not contest this allegation, we will, as the
District Court did, assume its truth. The November 2014
correspondence was attached to Simko’s response to U.S. Steel’s
motion to dismiss, but it was not referenced in his civil
complaint.
3

5a
three pages, a handwritten note that urged that he
was discharged in retaliation for his filing of the
original discrimination charge with the EEOC. In
relevant part, the letter provided:
Since I have filled [sic] the charges with the
EEOC I have been terminated twice and
placed on [a] last chance agreement with no
just cause by the company. The union only
calls me at [the] last minute with
information, they are not in contact with me
otherwise . . . . I believe anyone who

familiarizes themself [sic] with the details of
the case will clearly see it as retaliation for
filing charges with the EEOC.
App. 80–81 (emphasis added).

The EEOC did not take any action in response to
Simko’s November 2014 correspondence until
approximately one year later. By letter dated
November 23, 2015, an EEOC investigator notified
Simko that he had been assigned to Simko’s case.
The investigator further wrote that, based upon the
November 2014 correspondence, “it appears as
though you have been terminated by [U.S. Steel] on
two separate occasions during 2014 and that you
believe that the terminations were retaliatory
against you.” App. 84. Simko’s EEOC file also
contains a handwritten note by the investigator,
dated November 23, 2015, indicating that the EEOC
contacted the U.S. Steel Labor Relations Department
and confirmed that Simko had been discharged.4 In
The EEOC investigator’s November 23, 2015 letter and
handwritten note were not attached to the complaint but were
attached to Simko’s response to U.S. Steel’s motion to dismiss.
4

6a
addition, the note stated, “Amended charge is to
follow including retaliatory discharge.” App. 83.
C. The EEOC Investigation, Amended Charge,
and Simko’s Federal Lawsuit
After the EEOC contacted Simko, he retained
counsel to represent him in his EEOC proceedings.
By letter dated December 18, 2015, the EEOC
investigator communicated to Simko’s counsel that
the EEOC had notified U.S. Steel “that an amended
charge was going to follow.” App. 87. On January 22,
2016, Simko’s counsel filed an amended EEOC
charge. The amended charge addressed Simko’s
failure to secure the Spellman position and his
subsequent discharges from U.S. Steel. The boxes for
disability discrimination and retaliation were both
checked.
After investigating the allegations set forth in the
amended charge, the EEOC on February 19, 2019
issued a determination of reasonable cause that U.S.
Steel retaliated against Simko. Specifically, the
EEOC investigator found that U.S. Steel disciplined
Simko more harshly for his violation of work rules
and regulations than a non-disabled comparator. The
EEOC attempted conciliation of the dispute, but after
those efforts failed, it issued a right-to-sue letter on
April 1, 2019. On June 28, 2019, Simko filed this
lawsuit, asserting only a single count of retaliation in
connection with his final discharge from U.S. Steel. It
did not allege either disability discrimination or
failure to accommodate.
The District Court determined that Simko failed
to file a timely EEOC charge asserting his retaliation
claim because his amended charge claiming

7a
retaliation was filed 521 days after the termination of
his employment. The District Court also held that
Simko was not entitled to equitable tolling of the
ADA’s filing deadline because he was not misled by
the EEOC or prevented from filing the amended
charge, and he offered no reason why he could not file
a timely claim. Thus, the District Court concluded
that since Simko never filed a timely charge of
retaliation with the EEOC, he failed to exhaust his
administrative remedies as required by the ADA, and
it dismissed his complaint. Simko timely appealed.
II. JURISDICTION
REVIEW

AND

STANDARD

OF

The District Court had jurisdiction under 28
U.S.C. § 1331. We exercise appellate jurisdiction
pursuant to 28 U.S.C § 1291. We review de novo a
district court’s decision granting a motion to dismiss
under Federal Rule of Civil Procedure 12(b)(6).
Schmidt v. Skolas, 770 F.3d 241, 248 (3d Cir. 2014).
In reviewing a dismissal under Rule 12(b)(6), we
accept all well-pled factual allegations in the
complaint as true and draw all reasonable inferences
in the plaintiff’s favor. Connelly v. Lane Const. Corp.,
809 F.3d 780, 787 (3d Cir. 2016).
III. DISCUSSION
Plaintiffs must exhaust their administrative
remedies before filing an ADA claim in federal court.
See Churchill v. Star Enters., 183 F.3d 184, 190 (3d
Cir. 1999) (noting that claims asserted under the
ADA must be filed in adherence with the
administrative procedures set forth in Title VII); 42

8a
U.S.C. §§ 12117(a), 2000e-5.5 In Pennsylvania, an
aggrieved party must initiate this pre-suit procedure
by filing a charge with the EEOC within 300 days of
the challenged employment action. Watson v.
Eastman Kodak Co., 235 F.3d 851, 854 (3d Cir. 2000);
42 U.S.C. § 2000e-5(e)(1).
It is undisputed that Simko filed his amended
EEOC charge of retaliation 521 days after the latest
adverse employment action at issue in the civil
complaint—his final discharge. Before the District
Court and on appeal, U.S. Steel urges that Simko’s
civil complaint should therefore be dismissed because
he failed to file the retaliation charge within the
ADA’s 300-day filing period.
Despite his failure to meet the 300-day deadline,
Simko argues that he nonetheless satisfied the ADA’s
pre-suit requirements. The EEOC filed an amicus
brief in which it also urges that, contrary to the
District Court’s conclusion, Simko satisfied the ADA’s
pre-suit filing requirements.6 Three arguments are
While failure to file a timely charge may be a ground for
dismissal, that pre-suit requirement does not implicate a
district court’s subject matter jurisdiction. Rather, “like a
statute of limitations, [the filing deadline is] subject to waiver,
estoppel, and equitable tolling.” Zipes v. Trans World Airlines,
Inc., 455 U.S. 385, 393 (1982); see also Fort Bend Cty., Texas v.
Davis, 139 S. Ct. 1843, 1851 (2019) (holding that the “chargefiling requirement is a processing rule, albeit a mandatory one,
not a jurisdictional prescription delineating the adjudicatory
authority of courts”).
5

We noted at oral argument that it was unusual for the
EEOC to file an amicus brief in support of an appellant in
Simko’s position. Counsel for the EEOC stated that the agency
“made a mistake” by failing to help Simko convert his November
2014 correspondence into a charge in a timely manner. We
6

9a
advanced in the alternative. First, both Simko and
the EEOC contend that his handwritten November
2014 correspondence to the EEOC itself constituted a
timely administrative charge. Second, the EEOC
alone argues that Simko was entitled to equitable
tolling of the statutory filing period because the
agency failed to promptly act on the November 2014
correspondence. Third, both Simko and the EEOC
urge that he did not have to file an additional EEOC
charge because his original, still-pending disability
discrimination charge encompassed his subsequent
claim of retaliation.
We reject these arguments. The first argument
was never asserted in the District Court and has not
been properly preserved for our review. The second
argument was raised only by the EEOC on appeal
and, for reasons we explain below, will not be
considered. With respect to the final argument, we
conclude that Simko’s retaliation claim is distinct
from his underlying EEOC charge and therefore
needed to be raised first in a timely filed charge. His
failure to file a timely retaliation claim with the
EEOC therefore dooms his case.
A. We Will Not Reach the Unpreserved Issue
of
Whether
the
November
2014
Correspondence Constituted a Charge
Simko and the EEOC both contend that the
District Court should have concluded that the
November 2014 correspondence—which was sent
within 300 days of Simko’s final discharge—itself
constituted a timely EEOC charge that may serve as
appreciate the EEOC’s candor, but its acceptance of some degree
of fault does not alter our analysis.

10a
the basis for his federal lawsuit. They urge that,
despite its informal appearance, Simko’s handwritten
correspondence included all of the required contents
of an administrative charge. But as U.S. Steel points
out, Simko never raised this issue before the District
Court. In its opinion, the District Court sua sponte
commented on the handwritten letter, stating that it
“d[id] not constitute a ‘charge’ and Simko d[id] not
contend otherwise.” Simko v. United States Steel
Corp., No. CV 19-765, 2019 WL 6828421, at *3 (W.D.
Pa. Dec. 13, 2019). Simko and the EEOC now, for the
first time, contend otherwise.
It is well-established that arguments raised for
the first time on appeal are not properly preserved
for appellate review. See Del. Nation v.
Pennsylvania, 446 F.3d 410, 416 (3d Cir. 2006); see
also Freeman v. Pittsburgh Glass Works, LLC, 709
F.3d 240, 249 (3d Cir. 2013) (“We generally refuse to
consider issues that the parties have not raised
below.”). The general rule requiring preservation
“serves several important judicial interests,” such as
protecting the parties from unfair surprise,
“preventing district courts from being reversed on
grounds that were never urged or argued before
[them],” and promoting finality and the conservation
of judicial resources. Tri-M Grp., LLC v. Sharp, 638
F.3d 406, 416 (3d Cir. 2011) (alteration in original)
(quoting Webb v. City of Phila., 562 F.3d 256, 263 (3d
Cir. 2009)).
As a preliminary matter, the District Court’s
cursory statement that Simko’s handwritten
correspondence did not constitute a charge is, alone,
insufficient to preserve that issue for our review. U.S.
Steel contends that, by failing to raise that issue

11a
before the District Court, Simko waived any
argument to the contrary. Although we agree with
U.S. Steel that Simko did not preserve his argument
on appeal, we think that, under our most recent
precedent, Simko’s failure is better characterized as
“forfeiture,” not “waiver.” See Barna v. Bd. of Sch.
Directors of Panther Valley Sch. Dist., 877 F.3d 136,
146–47 (3d Cir. 2017). In Barna, we distinguished the
two terms, noting that “[t]he effect of failing to
preserve an argument will depend upon whether the
argument has been forfeited or waived.” Id. at 146.
Waiver is the intentional abandonment of an
argument. Id. at 147. In contrast, forfeiture “‘is the
failure to make the timely assertion of a right,’ an
example of which is an inadvertent failure to raise an
argument.” Id. at 147 (quoting United States v.
Olano, 507 U.S. 725, 733 (1993)). Because Simko’s
failure to argue before the District Court that the
November 2014 correspondence qualified as a charge
appears inadvertent, we treat that argument as
forfeited. See PDX N., Inc. v. Comm’r N.J. Dep’t of
Labor & Workforce Dev., 978 F.3d 871, 886 (3d Cir.
2020).
While a court may not entertain waived
arguments on appeal, it may review forfeited
arguments, but under only “truly ‘exceptional
circumstances.’” Barna, 877 F.3d at 147 (quoting
Brown v. Philip Morris Inc., 250 F.3d 789, 799 (3d
Cir. 2001)). These circumstances are “very ‘limited,’”
id. (quoting Webb, 562 F.3d at 263), and may include
cases where “the public interest requires that the
issue[s] be heard or when a manifest injustice would
result from the failure to consider the new issue[s],”

United States v. Anthony Dell’Aquilla, Enters. &

12a

Subsidiaries, 150 F.3d 329, 335 (3d Cir. 1998)
(alterations in original) (quoting Altman v. Altman,

653 F.2d 755, 758 (3d Cir. 1981)). Here, Simko offers
no reasons for his failure to urge before the District
Court that his handwritten correspondence and
accompanying documents qualified as a charge.
Moreover, there is no public interest implicated or
manifest injustice, particularly because Simko knew
how to file a formal EEOC charge, as he had done in
May 2013. In short, there are no exceptional
circumstances justifying departure from our rule
requiring preservation. Accordingly, we will not
address this issue.
B. Nor Will We Address the District Court’s
Ruling on Equitable Tolling
In its amicus brief, the EEOC alone urges that
the District Court erred by concluding that Simko
was not entitled to equitable tolling of the 300-day
statutory filing period. Specifically, the EEOC
contends that, if the November 2014 correspondence
did not qualify as an administrative charge, the
EEOC’s failure to promptly convert it to a charge
should warrant equitable tolling of the statutory
deadline for Simko. Although Simko litigated the
equitable tolling issue before the District Court, he
did not present it to us as an issue on appeal. We
have held that the role of an amicus brief is to
“elaborate[] issues properly presented by the parties,”
not “inject[] new issues into an appeal.” N.J. Retail
Merchs. Ass’n v. Sidamon-Eristoff, 669 F.3d 374, 382
n.2 (3d Cir. 2012) (quoting Universal City Studios,
Inc. v. Corley, 273 F.3d 429, 445 (2d Cir. 2001)).
Thus, “[a]n amicus normally ‘cannot expand the scope
of an appeal with issues not presented by the parties

13a
on appeal,’ at least not ‘in cases where the parties are
competently represented by counsel.’” Hartig Drug
Co. Inc. v. Senju Pharm. Co., 836 F.3d 261, 267 (3d
Cir. 2016) (citation omitted) (quoting Nuveen Mun.

Tr. ex rel. Nuveen High Yield Mun. Bond Fund v.
WithumSmith Brown, P.C., 692 F.3d 283, 300 n.10

(3d Cir. 2012)). By raising the equitable tolling issue,
the EEOC attempts to resurrect an issue that Simko
abandoned on appeal. Accordingly, we will not
reconsider the District Court’s conclusion that
equitable tolling was not warranted.
C. Simko’s Original EEOC Charge Did Not
Encompass His Subsequent Retaliatory
Discharge Claim
Simko’s main argument on appeal is that he was
not required to file a timely retaliation charge
because his retaliation claim was encompassed
within his still-pending original charge of disability
discrimination. U.S. Steel responds, as it did before
the District Court, that Simko’s retaliation claim
cannot be bootstrapped to the original charge because
the two sets of allegations are sufficiently distinct,
and under the analysis required by our precedent,
Simko should have filed a separate charge for the
retaliation claim. We agree with U.S. Steel on this
issue.
As noted above, the ADA requires that a plaintiff
administratively exhaust all claims before seeking
relief in federal court. Burgh v. Borough Council of
Borough of Montrose, 251 F.3d 465, 469 (3d Cir.
2001); 42 U.S.C. §§ 12117(a), 2000e-5(b). These presuit requirements, which include the step of filing a
charge and receiving a right-to-sue letter from the
EEOC, are “essential parts of the statutory plan,

14a
designed
to
correct
discrimination
through
administrative conciliation and persuasion if
possible, rather than by formal court action.”
Ostapowicz v. Johnson Bronze Co., 541 F.2d 394, 398
(3d Cir. 1976); see also Anjelino v. New York Times
Co., 200 F.3d 73, 94 (3d Cir. 1999) (“[T]he purpose of
the filing requirement is to enable the EEOC to
investigate and, if cause is found, to attempt to use
informal means to reach a settlement of the
dispute.”). The Supreme Court has also emphasized
that a fundamental aim of the pre-suit requirements
is to “give prompt notice to the employer” and
“encourage the prompt processing of all charges of
employment discrimination.” Nat’l R.R. Passenger
Corp. v. Morgan, 536 U.S. 101, 109, 121 (2002)
(internal quotation marks omitted). The exhaustion
requirement thus advances the remedial purposes of
the ADA.
The “relevant test” for determining whether a
later claim needs to be exhausted despite the filing of
a previous charge is a two-pronged inquiry into
whether “the acts alleged in the subsequent . . . suit
are fairly within the scope of [1] the prior EEOC
complaint, or [2] the investigation arising
therefrom.”7 Waiters v. Parsons, 729 F.2d 233, 237

The Waiters inquiry is a disjunctive test—that is, a
plaintiff need not file an additional EEOC charge if the
allegations of the civil complaint are fairly within the scope of
(1) the pending EEOC charge or (2) the investigation arising
from the charge.
7

As Simko notes, however, on at least two occasions, we
have treated the inquiry as being conjunctive. For example, in
Hicks v. ABT Associates, Inc., we determined that a

15a
(3d Cir. 1984); see also Robinson v. Dalton, 107 F.3d
1018, 1025 (3d Cir. 1997) (identifying the “two
circumstances in which events subsequent to a filed
[EEOC] complaint may be considered as fairly
encompassed within that complaint”).
The exhaustion inquiry is highly fact specific.
Under our precedent, the Court must “examine
carefully the prior pending EEOC complaint and the
unexhausted claim on a case-by-case basis before
determining that a second complaint need not have
finding that the EEOC would have discovered a claim
for sex discrimination in the course of a reasonable
investigation does not itself meet the standard of
Ostapowicz [and satisfy the exhaustion requirement].
This evidence merely rebuts the presumption that the
scope of the actual investigation is “what can
reasonably be expected to grow out of the charge of
discrimination.” 541 F.2d at 398–99. The district court
must further find that the sex discrimination claims
which would have been uncovered were reasonably
within the scope of the charge filed with the EEOC.
572 F.2d 960, 967 (3d Cir. 1978) (emphasis added). In Howze v.
Jones & Laughlin Steel Corp., which was decided less than a
year after Waiters, we summarized Hicks as holding that a
“district court may assume jurisdiction over additional charges
if they are reasonably within the scope of the complainant’s
original charges and if a reasonable investigation by the EEOC
would have encompassed the new claims.” 750 F.2d 1208, 1212
(3d Cir. 1984) (emphasis added). The Howze court notably failed
to mention Waiters.
Notwithstanding this minor conflict of authority, since

Howze we have consistently applied the disjunctive formulation
of the exhaustion test set forth in Waiters. See Antol v. Perry,
82 F.3d 1291, 1295 (3d Cir. 1996); Robinson v. Dalton, 107 F.3d
1018, 1025 (3d Cir. 1997); Mandel v. M & Q Packaging Corp.,
706 F.3d 157, 163 (3d Cir. 2013). Accordingly, the disjunctive
test governs our analysis in this case.

16a
been filed.” Robinson, 107 F.3d at 1024. Simko and
the EEOC urge that we should adopt the broad per se
rule followed by some courts of appeals that treat
post-charge claims of retaliation as exhausted when
they arise during the pendency of a prior charge. See,
e.g., Duplan v. City of New York, 888 F.3d 612, 622
(2d Cir. 2018); Nealon v. Stone, 958 F.2d 584, 590
(4th Cir. 1992); Gupta v. E. Texas State Univ., 654
F.2d 411, 414 (5th Cir. 1981). We have said, however,
that such a per se rule, “whether express or applied
in practice, would eviscerate the remedial purposes of
the exhaustion requirement.” Robinson, 107 F.3d at
1024. We have already rejected this per se argument
and will adhere to our precedent that requires a
careful examination of the nature of the relevant
claims. See Waiters, 729 F.2d at 237 n.10 (declining
to adopt what the Court characterized as the Fifth
Circuit’s rule that “all claims of ‘retaliation’ against a
discrimination victim based on the filing of an EEOC
complaint are ‘ancillary’ to the original complaint”);
Robinson, 107 F.3d at 1024 (also rejecting a per se
rule that post-charge retaliation claims “necessarily
fall[] within the scope of . . . [previously filed, stillpending EEOC] complaints”).8
Even interpreting Simko’s charge liberally under
our fact-specific approach, the retaliation claim based
Similarly, Simko urges that his retaliation claim is
sufficiently related to his original charge of disability
discrimination under our case-by-case approach because, by
definition, retaliation requires a “predicate action protected by
the ADA,” and his original charge “was a prerequisite to the
existence of the retaliation claim.” Appellant’s Br. 62. Because
such an argument merely restyles the same per se rule that we
have previously rejected, we also reject it here.
8

17a
on his August 2014 termination does not fall fairly
within the scope of either (1) his original charge of
disability discrimination based on his being denied
the Spellman position in August 2012, or (2) the
EEOC investigation arising therefrom. See Waiters,
729 F.2d at 235; see also Mandel v. M & Q Packaging
Corp., 706 F.3d 157, 163 (3d Cir. 2013); Robinson,
107 F.3d at 1025; Antol v. Perry, 82 F.3d 1291, 1295
(3d Cir. 1996). We address both prongs of the
analysis in turn.
Simko concedes that his retaliation claim fails
the first prong of the exhaustion analysis. Simply
put, no allegations of retaliation appeared on the face
of his original EEOC charge. Simko failed to check
the box indicating a claim of retaliation and his
narrative contained no reference to conduct that
could be construed as retaliatory. As U.S. Steel
argues, “the legal theories in the original charge and
amended charge are not the same, the incidents are
not the same, the individuals involved are not the
same, the work locations are not the same, and the
time-periods are not the same.” Appellee’s Br. 20–21.
Accordingly, Simko’s retaliatory discharge claim does
not fall fairly within the scope of his EEOC charge.
The central dispute in this case, however,
concerns the second prong of the analysis—whether
Simko’s claim of retaliation falls “fairly within . . . the
investigation arising” from the initial EEOC charge.
Waiters, 729 F.2d at 237. At this step of the analysis,
we consider “the scope of the EEOC investigation
which can reasonably be expected to grow out of the
charge of discrimination.” Ostapowicz, 541 F.2d at
398–99. Simko and the EEOC primarily argue that
this prong may be satisfied simply based on the fact

18a
that the EEOC actually did investigate Simko’s
retaliatory discharge claim, albeit more than two
years after he filed his initial charge.9 To the
contrary, our precedent emphasizes that the Court
must look only at the scope of the EEOC
investigation that would reasonably grow out of, or
arise from, the initial charge filed with the EEOC,
“irrespective of the actual content of the
Commission’s investigation.” Hicks v. ABT Assocs.,
Inc., 572 F.2d 960, 966 (3d Cir. 1978); see also Howze
v. Jones & Laughlin Steel Corp., 750 F.2d 1208, 1212
(3d Cir. 1984) (holding that “[w]hether the actual
EEOC investigation uncovered any evidence of
retaliation is of no consequence” in determining
whether a new claim of retaliation is encompassed in
the original EEOC charge). As such, we agree with
the District Court’s characterization of our
exhaustion analysis as “objective” rather than
“subjective.” Simko, 2019 WL 6828421, at *7.
Given the fact-specific nature of the exhaustion
inquiry, our precedent in this area—Hicks, Waiters,
Antol, and Robinson—provides useful guidance. As
these cases demonstrate, when determining whether
a claim fairly or reasonably falls within the
investigation arising from a charge, courts consider
9
Simko pushes this argument one step further: He urges
that our case-by-case analysis and precedent are not even
applicable in this case because the EEOC ultimately
investigated his retaliation claim and issued a right-to-sue
letter based on that claim. He contends that our fact-specific
exhaustion inquiry instead applies only in cases where either (1)
the claim at issue was not presented to the EEOC or (2) the
EEOC failed to investigate the claim. We disagree. No authority
from our Court supports such a strict limitation on the
exhaustion analysis.

19a
(1) whether the claim arises from the same set of
facts that support the original charge and (2) whether
the claim advances the same theory of discrimination
as the original charge.
In Hicks, the plaintiff filed an EEOC charge
alleging only race discrimination, but later sued
asserting, inter alia, claims of both race
discrimination and sex discrimination. 572 F.2d at
962–63. The EEOC investigated the race
discrimination claim but failed to investigate sex
discrimination. Id. Nevertheless, we held that the
actual EEOC investigation did not necessarily set the
“outer limit” of the scope of the civil complaint. Id. at
966. Such a limitation would unfairly penalize a
plaintiff for an “unreasonably narrow or improperly
conducted” investigation by the EEOC. Id. Thus, the
issue was whether a reasonable investigation would
include a sex discrimination claim.
We noted that certain instances of sex
discrimination alleged in Hicks’s civil complaint
arose from the same conduct that supported his race
discrimination claims and that there was evidence
that the EEOC improperly failed to contact Hicks to
discuss his charge after it was filed. Id. On those
grounds, we remanded to the district court to
determine “whether the . . . investigation reasonably
would have included examination of the sex
discrimination claims,” such that those claims did not
need to have been exhausted by filing a separate
charge. Id. at 966, 970.

Waiters involved an investigation of retaliatory

conduct that went beyond the four corners of the
EEOC charge. Waiters filed a charge with the EEOC
asserting a claim of sex discrimination under Title

20a
VII against her employer, and over a year later she
filed a second charge alleging that the employer
retaliated against her for having submitted the
earlier complaint. Waiters, 729 F.2d at 235. After she
filed the second charge, Waiters was discharged. Id.
at 236. Waiters did not file a new charge based on her
termination. Id. She then brought suit in federal
court alleging that she was discharged in retaliation
for exercising her rights under Title VII. Id.
The district court concluded that Waiters should
have filed another charge with the EEOC after she
was discharged and dismissed Waiters’s complaint
for failure to exhaust administrative remedies. Id.
We reversed. While Waiters’s second EEOC charge
was limited to a specific instance of retaliation, the
EEOC investigation extended beyond that individual
allegation and uncovered a subsequent pattern of
retaliatory harassment by different officials. Id. at
235 n.2, 238. Although the post-charge retaliatory
conduct involved different officials and episodes of
misconduct that occurred over thirty months later,
we held that “the core grievance—retaliation—is the
same and, at all events, it is clear that the allegations
of the appellant’s complaint fall within the scope of
the [EEOC’s] investigation of the charges contained
in the . . . [second EEOC] complaint.” Id. at 238.
Thus, Waiters did not need to file a separate charge
regarding her new retaliatory discharge claim. Id.
We reached a different conclusion, on different
facts, in Antol v. Perry. In that case, Antol filed a
federal lawsuit alleging both disability discrimination
under the Rehabilitation Act, 29 U.S.C. § 791 et seq.,
and gender discrimination under Title VII for failure
to hire. Antol, 82 F.3d at 1293. Although Antol

21a
exhausted his remedies with respect to his claim of
disability discrimination, he never raised allegations
of gender discrimination at any point in the
administrative proceedings and the EEOC did not
investigate gender discrimination. Id. at 1295. We
concluded that “[t]he specifics of [Antol’s] disability
discrimination charge d[id] not fairly encompass a
claim for gender discrimination merely because
investigation would reveal that Antol is a man and
the two employees who received the positions [were]
women.” Id. at 1296. In addition, we determined that
the EEOC investigation properly focused on “the
gravamen
of
Antol’s
complaint—disability
discrimination” and that neither the EEOC nor the
employer had been put on notice of the new gender
discrimination claim. Id. Accordingly, Antol’s failure
to exhaust administrative remedies for his gender
discrimination claim barred that claim. Id.

Robinson is our most recent precedential opinion

addressing the exhaustion of claims arising from
post-charge events. There, we applied our factspecific exhaustion inquiry to a post-charge claim of
retaliatory discharge. Robinson, 107 F.3d at 1024.
Robinson filed three EEOC charges alleging racial
discrimination and retaliation against his employer,
the Navy, for denying him sick leave, placing him on
unauthorized leave status, and issuing him an
“indebtedness letter” for taking unapproved sick
leave and creating an asbestos hazard. Id. at 1019,
1025. After Robinson filed these charges, the Navy
terminated his employment, pointing to his excessive
unauthorized absences and the asbestos hazard—the
subject matter of his prior charges—as the basis for
his discharge. Id. at 1019–20. Robinson then brought

22a
suit in federal court claiming that he was discharged
in retaliation for filing his three charges. Id. at 1020.
He did not file an additional charge alleging
retaliatory discharge and the EEOC did not
investigate his termination. Id. at 1025. The district
court dismissed Robinson’s complaint for failure to
exhaust administrative remedies. Id. at 1020. On
appeal, we noted that the district court had failed to
examine the scope of the EEOC’s investigation, and—
as in Hicks—we remanded to determine whether a
reasonable investigation of Robinson’s charges would
have included his retaliatory discharge allegation. Id.
at 1026.
We draw several principles from these
precedents. Most importantly, the original charge is
the touchstone of our exhaustion analysis. See, e.g.,
Antol, 82 F.3d at 1296 (focusing on the “specifics of
. . . [the] charge” in determining whether a new claim
is encompassed by the charge). First, we closely
examine the original charge’s contents to determine
the reasonable scope of the EEOC investigation that
would likely occur. See Robinson, 107 F.3d at 1024.
Second, we parse the later claim and determine
whether its allegations would be covered in that
reasonable investigation. See Hicks, 572 F.2d at 966.
At bottom, we must compare the two sets of
allegations and evaluate whether they are
sufficiently related such that a reasonable
investigation of the original charge would address the
subsequent, unexhausted claims. In comparing the
two sets of allegations, we look for factual similarities
or connections between the events described in the
claims, the actors involved, and the nature of the
employer conduct at issue. See id. at 965 (noting that

23a
some instances of sex discrimination alleged in the
civil complaint “arise from the same acts which
support claims for race discrimination” described in
the underlying charge). Such factual overlap alone,
however, does not guarantee that the new allegations
are encompassed by the original charge if they do not
fall within the “gravamen” of the initial charge. See
Antol, 82 F.3d at 1296 (rejecting the male plaintiff’s
attempt
to
recharacterize
his
disability
discrimination claim for failure-to-promote as a
gender discrimination claim merely on the ground
that two women secured positions over him). But
even if we find no factual nexus, we may also
consider whether the two sets of allegations advance
the same theory of discrimination, as in Waiters. See
729 F.2d at 238.
With these principles in mind, we turn to the fact
pattern presented here. Unlike in Waiters, the
additional allegations that the EEOC investigated
after it received the November 2014 correspondence
were only tenuously related to the substance of the
original charge. Simko’s original EEOC charge was
based on the Transportation Department’s failure to
accommodate his hearing disability and its alleged
discrimination against him by its refusal to approve
him for the Spellman position in August 2012.10 By
As the District Court noted, the fact that Simko’s original
charge of disability discrimination also alleged that his
“Walking Boss” made a discriminatory comment in November
2012 about his hearing impairment does not sufficiently expand
the effective scope of the original charge to include his later
retaliation claim. That specific allegation of disability
discrimination is still too tenuously related in time and
substance to Simko’s retaliatory discharge claim.
10

24a
contrast, the retaliation claim that Simko later filed
in the District Court alleges that his discharge from
the Blast Furnace Department in August 2014 was in
retaliation for his filing of the original discrimination
charge.
The original EEOC charge and Simko’s civil
complaint thus address discrete adverse employment
actions that occurred approximately two years apart
and involved different supervisors in different
departments. Under these facts, the scope of a
reasonable investigation arising out of Simko’s initial
charge would certainly include an inquiry into
whether Simko was qualified for the Spellman
position, U.S. Steel’s reasons for passing him over,
and identification of the person who secured the
position and why he or she was chosen. While such
an investigation could also inquire into whether any
other adverse actions were taken against him
relating to his disability or his having filed a charge,
a reasonable investigation in this case would not
have included an inquiry into Simko’s post-charge
firing. Simko’s allegations of retaliation are too
remote in time and substantively distinct from the
allegations of disability discrimination for a
reasonable EEOC investigation based on the original
charge to encompass the later events.11 And,
Our dissenting colleague says that retaliation charges are
intrinsically related to previous charges of discrimination. We
do not disagree with this as a general proposition, but the
allegation that an adverse employment action occurred in
retaliation for the filing of an initial EEOC charge does not
necessarily mean that “a close nexus” of supporting facts, Hicks,
572 F.2d at 967, or a common “core grievance,” Waiters, 729
F.2d at 238, exist. We have only held that unexhausted claims of
retaliatory discharge fall within the scope of the investigation
11

25a
importantly, the original charge and complaint allege
different types of discrimination—in one, disability
discrimination and failure to accommodate and in the
other, retaliation. Absent “a close nexus” of
supporting facts, Hicks, 572 F.2d at 967, or a common
“core grievance,” Waiters, 729 F.2d at 238, we
conclude that a reasonable investigation of Simko’s
original charge of disability discrimination would not
unearth facts about his allegations of retaliation
nearly two years later.
Our dissenting colleague cites the appropriate
test repeatedly: If discriminatory acts occur after a
plaintiff files his EEOC charge, he need not file an
additional charge if the new allegations are “fairly [or
reasonably] within the scope of . . . the investigation
arising” out of the initial charge. Waiters, 729 F.2d at
237. As the dissent recognizes, in conducting this
inquiry, we ask whether the new claim should
“reasonably [have] be[en] expected to grow out of the
[initial] charge.” Ostapowicz, 541 F.2d at 399.
However, the dissent fails to consider the facts in
light of the test. As we have done in the other cases
applying our exhaustion analysis, we must look at
the facts as they are alleged in the charge and the
civil complaint. And the facts here are unique.
What was the initial charge? Here, Simko
claimed that U.S. Steel denied him a reasonable
reasonably arising out of the original claim when the original
claim included “the same retaliatory intent inherent in the
[subsequent] retaliatory discharge claim.” Robinson, 107 F.3d at
1026; see also Waiters, 729 F.2d at 238 (“[T]he core grievance—
retaliation—is the same.”). We will not expand that exception to
the exhaustion requirement to cover such tenuously related
conduct as in this case.

26a
accommodation for his hearing disability and passed
him over for a job because of that same disability.
The initial charge included no additional instances of
unlawful discriminatory treatment, other than an
allegation that some other employees made “negative
comments” about Simko’s hearing impairment. App.
34. Unlike the plaintiff in Hicks, Simko did not later
allege a different theory of discrimination based on
some of the same underlying acts that supported his
initial theory of discrimination. And unlike in
Waiters, Simko’s initial charge of discrimination was
not followed by subsequent instances of the same
type of unlawful treatment. As previously discussed,
our exhaustion analysis is tied to the substance of
Simko’s only timely-filed claim in this case: that he
did not receive a reasonable accommodation and was
denied the Spellman job due to his disability.
The only other operative fact, namely Simko’s
discharge, came to light over seventeen months after
he submitted the initial charge, when he alerted the
EEOC that he was fired in retaliation for filing the
charge. But, would the allegedly retaliatory firing
have been included in an investigation that could
“reasonably be . . . expected to grow” out of the facts
surrounding his original charge of disability
discrimination, approximately two years prior?
Ostapowicz, 541 F.2d at 399. There is no basis in fact
or law for an answer in the affirmative. As we noted
above, the scope of a reasonable investigation into
Simko’s being passed over for a job based on his
disability would have involved a limited inquiry. If
we were to say that his later claim of retaliation was
encompassed by his—however distantly related—
initial charge of disability discrimination, we would

27a
be establishing a de facto per se rule, contrary to our
holdings in Waiters, 729 F.2d at 237 n.10, and
Robinson, 107 F.3d at 1024.
The dissent urges that we should conclude
Simko’s
post-charge
retaliation
claim
was
encompassed in his original charge because his
retaliation claim is strongly “tethered” to his initial
charge of disability discrimination and failure to
accommodate. Dissent Op. 15. We reject this
conclusory assertion. As relevant here, a “tether”
actually exists only when the allegations in the later
charge would fall within the reasonable scope of the
investigation into the allegations of the original
charge. Simko’s situation fails that test. The dissent
glosses over the differences between the two very
different types of allegations in the initial charge and
the civil complaint and instead focuses on the fact
that the EEOC actually investigated and attempted
to conciliate Simko’s retaliation claim. Those ex-post
facts do not determine the reasonable scope of an
EEOC investigation.
Even if our exhaustion inquiry turned on the
actual—rather
than
reasonable—scope
of
investigation arising from a charge, Simko’s
retaliation claim should still be dismissed. That is
because the investigation in this case did not actually
“aris[e]” from, Waiters, 729 F.2d at 237, or “grow out
of,” Hicks, 572 F.2d at 967, the underlying
discrimination charge. Critically, the EEOC failed to
investigate Simko’s original charge, and during the
approximately thirty-month delay between the filing
of his original charge and the EEOC investigator’s
response to his November 2014 correspondence, he
experienced a change in circumstances that formed

28a
the basis of a new, distinct claim. It was due only to
that extended delay and Simko’s handwritten
November 2014 correspondence that the EEOC
learned of, and was able to investigate, Simko’s new
allegations while his original charge was still
pending.
Thus, the EEOC investigation did not actually
grow out of the original charge. Instead, the
investigation arose from Simko’s handwritten
correspondence. After apparently taking no
investigative action for over two years following its
receipt of the original 2013 charge, the EEOC
commenced its investigation only after an
investigator read Simko’s correspondence and sent
Simko a letter inquiring about his case. Significantly,
that letter—dated November 23, 2015, over a year
after Simko’s November 2014 correspondence—
referenced only Simko’s retaliation allegations,
further demonstrating that the EEOC acted on the
basis of the November 2014 correspondence, not his
original charge. As we noted above, the EEOC file
included a comment that an amended charge was to
follow, “including retaliatory discharge.” App. 83.
That amended charge, however, was not timely filed.
Simko and the EEOC nevertheless urge that
because the EEOC ultimately did investigate the
retaliatory discharge claim, such an investigation
must have been “reasonable,” rendering it
unnecessary to file an additional timely charge. We
disagree.
As the District Court observed, this case does not
involve an EEOC investigation that was unduly
narrow, but rather, one that extended beyond the
face of the operative EEOC charge. Contrary to

29a
Simko and the EEOC’s arguments, however, we
analyze claims excluded from an EEOC investigation
in the same way that we analyze claims included in
the investigation. Our focus remains on the
investigation that can “reasonably be expected to
grow out of the charge.” Ostapowicz, 541 F.2d at 399.
This principle applies equally in cases where the
EEOC failed to investigate a claim, see, e.g.,
Robinson, 107 F.3d at 1025; Hicks, 572 F.2d at 966,
and cases where the EEOC broadened its
investigation to cover claims not included in the
charge, see Waiters, 729 F.2d at 238. Holding
otherwise—that is, treating all investigated claims as
exhausted—would create a one-way ratchet. The
EEOC’s choice to investigate certain employer
conduct would set the bare minimum scope of a civil
complaint while its failure to investigate other
conduct would not restrict the “outer limit” of the
complaint, Hicks, 572 F.2d at 966. Such a rule would
undermine the remedial aims of the pre-suit filing
requirements by permitting a charging party to
“greatly expand an investigation simply by alleging
new and different facts when he was contacted by the
[EEOC] following his charge.” Id. at 967. Simko’s
November 2014 correspondence did just that—it
introduced new allegations of retaliation based on
facts distinct from those alleged in his original
charge.
Simko and the EEOC’s other arguments that his
retaliatory discharge claim fell within the scope of a
reasonable EEOC investigation are unpersuasive.
They both contend that EEOC investigations are
entitled to a presumption of regularity and that, in
essence, we should “assume that the EEOC would not

30a
expend time or resources investigating matters
unrelated to a pending charge.” EEOC’s Br. 24; see
also Hicks, 572 F.2d at 966. In support of this
position, they point to EEOC internal policies,
reflected in the EEOC’s Compliance Manual, which
govern the scope of investigations and the
circumstances in which the EEOC may broaden an
investigation. For example, these policies direct
investigators to remain alert to evidence of
retaliation during their investigations, inform their
supervisors in case such evidence surfaces, and notify
the employer that “the scope may be expanded or
limited based on information received during the
investigation.” EEOC Compl. Man. § 22.3, Scope of
Investigation, 2006 WL 4673367; see also EEOC
Compl. Man. § 2.8, Charges Warranting Priority
Handling, 2006 WL 4672924; EEOC Compl. Man.
§ 13.1, Litigation for Temporary or Preliminary
Relief: Introduction, 2006 WL 4673012.
In light of these practices and the presumption of
investigative regularity, Simko and the EEOC urge
that it was reasonable for the EEOC to broaden the
investigation beyond the four corners of the original
charge and that Simko’s retaliation claim therefore
satisfies the second prong of the exhaustion inquiry.
We reject this argument on two grounds. First, a
rebuttable presumption of regularity does not
foreclose judicial review of the scope of EEOC
investigations, as Simko argues. See, e.g., Robinson,
107 F.3d at 1026 (remanding to the district court to
“evaluate the reasonableness of the decision not to
investigate”); Antol, 82 F.3d at 1296 (holding that the
investigation “quite properly” focused on Antol’s
disability discrimination claim). Here, the EEOC’s

31a
inaction for over two years on Simko’s original charge
is sufficient to rebut the presumption that its
subsequent investigation of Simko’s charge was
regular or reasonable.12
Second, the EEOC Compliance Manual does not
persuade us that a reasonable investigation of the
original charge in this case would have included the
post-charge retaliation allegations. We do not
question the EEOC’s policy that officials prioritize
retaliation claims or inquire about possible
retaliation while investigating a discrimination
charge. Nor do we question that the EEOC often
changes the scope of investigations based on the
We recognize that limited resources and the significant
volume of charges filed with the EEOC each year make some
amount of administrative delay inevitable. For example, in
Fiscal Year 2019 alone, the EEOC received 72,675 charges of
workplace discrimination. See Press Release, U.S. Equal
Employment Opportunity Commission, EEOC Releases Fiscal
Year 2019 Enforcement and Litigation Data (Jan. 24, 2020),
https://www.eeoc.gov/newsroom/eeoc-releases-fiscal-year-2019enforcement-and-litigation-data (last visited Mar. 26, 2021).
12

Nevertheless, two points of reference underscore that the
EEOC’s delay in this case was out of the ordinary. First, under
the ADA, a charging party must permit the EEOC a minimum
of 180 days to investigate and attempt to resolve his dispute,
only after which he may demand a right-to-sue letter and
proceed to federal court. See Occidental Life Ins. Co. of
California v. EEOC, 432 U.S. 355, 360–61 (1977); 42 U.S.C. §
2000e-5(f)(1). Second, according to the EEOC, the average
length of an investigation is approximately ten months. See U.S.
Equal Employment Opportunity Commission, What You Can
Expect After You File a Charge, https://www.eeoc.gov/what-youcan-expect-after-you-file-charge (last visited Mar. 26, 2021).
In this case, the agency’s delay in initiating
investigation alone far exceeded both of these time periods.

its

32a
information it gathers during the investigative
process. Nevertheless, the significant differences
between Simko’s original charge of disability
discrimination and his later claim of retaliatory
discharge foreclose the possibility that a reasonable
investigation would have reached his post-charge
claim, even in light of the EEOC’s own practices.13
Relatedly, we do not give more weight to these
arguments about exhaustion merely because the
EEOC itself has taken the position that a reasonable
investigation would have encompassed Simko’s
retaliation claim. Courts refuse to defer to the
EEOC’s litigation position when, as here, it is “not
embodied in any formal issuance from the agency,
such as a regulation, guideline, policy statement or
administrative adjudication.” Gregory v. Ashcroft,
501 U.S. 452, 485 n.3 (1991) (White, J., concurring);
see also Bowen v. Georgetown Univ. Hosp., 488 U.S.
204, 213 (1988) (“Deference to what appears to be
nothing more than an agency’s . . . litigating position
would be entirely inappropriate.”). Specifically, when
a district court considers whether a plaintiff has
exhausted his administrative remedies, “[n]o
deference may be accorded the EEOC or the
complaint investigator’s finding with respect to the
plaintiff’s compliance.” McBride v. CITGO Petroleum
Corp., 281 F.3d 1099, 1105–06 (10th Cir. 2002).
The dissent characterizes what occurred after the EEOC
received the November 14 correspondence as the agency
“expanding” its investigation into Simko’s initial charge. Dissent
Op. 12. The EEOC did no such thing. There never was a
disability discrimination investigation in the first place. Instead,
the EEOC embarked on a discrete investigation into retaliation
based on the handwritten letter.
13

33a
Accordingly, we do not defer to the EEOC on the
question of administrative exhaustion.
Simko and the EEOC further assert that filing an
additional EEOC charge was not necessary in this
case because the purpose of the ADA statutory
scheme was ultimately fulfilled: namely, the
facilitation of an informal dispute resolution process
between Simko and U.S. Steel. This argument,
however, ignores two other fundamental aims of the
exhaustion requirement: prompt notice to the
employer and swift dispute resolution. See, e.g.,
Morgan, 536 U.S. at 109 (“[B]y choosing what are
obviously quite short deadlines, Congress clearly
intended to encourage the prompt processing of all
charges of employment discrimination.” (internal
quotation marks omitted)); 42 U.S.C. § 2000e-5(b),
(e)(1) (requiring that the EEOC serve notice on the
employer against whom the charge is made within 10
days of the filing of the charge). In addition to
advancing those goals, the Supreme Court has
emphasized that “strict adherence” to the ADA’s
procedural requirements “is the best guarantee of
evenhanded administration of the law.” Morgan, 536
U.S. at 108 (quoting Mohasco Corp. v. Silver, 447
U.S. 807, 826 (1980)).
While the EEOC did ultimately investigate and
attempt pre-complaint conciliation between Simko
and U.S. Steel, this process was significantly delayed.
Critically, U.S. Steel did not receive any notice of
Simko’s retaliation claim until well after the end of
the 300-day filing period. The parties agree that U.S.
Steel was informally notified of Simko’s retaliation
allegations no earlier than November 23, 2015—the
day of the EEOC investigator’s note to Simko’s file—

34a
and no later than December 18, 2015—the day of the
investigator’s letter to Simko’s counsel stating that
he had informed U.S. Steel about the amended
charge to be filed. This means that U.S. Steel did not
receive even informal notice of the retaliatory
discharge claim until some point between 161 days
and 186 days after the filing period expired.
Moreover, U.S. Steel was not formally put on notice
of the retaliatory discharge claim until after Simko’s
counsel filed his amended EEOC charge on January
22, 2016, 221 days after the end of the filing period.
Given this timeline, excusing the exhaustion
requirement for Simko’s retaliation claim would
undercut the Supreme Court’s emphasis on “strict
adherence” to the pre-suit requirements and the
statutory scheme’s aims of notice and prompt dispute
adjudication. See Morgan, 536 U.S. at 108–09.
We thus conclude that Simko’s subsequent
retaliation claim would not have fallen within the
reasonable scope of an EEOC investigation into his
original discrimination charge. Accordingly, his
retaliation claim fails the second prong of the
exhaustion inquiry.
While it is unfortunate that Simko did not timely
amend his initial charge on his own and that the
EEOC did not promptly react to his November 2014
correspondence, we cannot hold that the later claim
is encompassed within the initial charge because
Simko’s retaliatory discharge claim does not fairly, or
reasonably, fall within the scope of his original
charge or an EEOC investigation that would arise
therefrom. Thus, he needed to file an amended
charge advancing that claim within the ADA’s 300day filing period. Because he failed to do so, the

35a
District Court correctly dismissed his complaint for
failure to exhaust administrative remedies.
IV. CONCLUSION
For the foregoing reasons, we will affirm the
District Court’s dismissal of Simko’s complaint.

36a
McKEE, Circuit Judge, concurring in part and
dissenting in part.
A petitioner need not file a new formal charge
with
the
Equal
Employment
Opportunity
Commission if that charge is “within the scope of a
prior EEOC complaint or the investigation which
arose out of it.”1 I must respectfully dissent from the
Majority opinion because the EEOC investigation of
Simko’s retaliation claim was reasonably within the
scope of the investigation arising out of Simko’s
initial disability discrimination claim. Thus, Simko’s
retaliation claim related back to his earlier timely
disability discrimination claim and the District Court
erred in dismissing Simko’s retaliation claim for
failure to exhaust his administrative remedies.2
I.
In Pennsylvania, “a complainant has 300 days
from the date of the adverse employment decision to

1

Waiters v. Parsons, 729 F.2d 233, 235 (3d Cir. 1984).

I agree with my colleagues’ decision to dismiss the first
two claims raised by Simko and the EEOC. Simko’s strongest
argument would have been that his November 2014 letter to the
EEOC should have been construed as a formal EEOC charge of
retaliation. However, that argument has been forfeited because
Simko did not raise it before the District Court. See Maj. Op. at
8–10. I agree with my colleagues that the District Court’s
cursory, sua sponte consideration of the issue—which simply
noted that the letter did not constitute a charge and that Simko
did not argue otherwise—is insufficient to preserve the issue. Id.
at 9–10. We also cannot reach the EEOC’s claim that the court
should have equitably tolled the charge-filing period during the
time after Simko sent his November 2014 letter to the EEOC
because the claim was not included in Simko’s notice of appeal.
See id. at 10.
2

37a
file a claim with the [EEOC].”3 “The purpose of [the
filing requirement] . . . is to afford the EEOC the
opportunity to settle disputes through conference,
conciliation, and persuasion, avoiding unnecessary
action in court.”4
If, after a petitioner files a claim, subsequent
discriminatory acts occur, the petitioner does not
need to file a new formal charge with the EEOC so
long as the new allegations “fall[ ] within the scope of
a prior EEOC complaint or the investigation which
arose out of it.”5 This “includ[es] new acts which
occurred during the pendency of proceedings before
the Commission.”6 This is quite reasonable because
“additional charges filed during the pendency of the
administrative proceedings may fairly be considered
explanations of the original charge and growing out
of it.”7

Watson v. Eastman Kodak Co., 235 F.3d 851, 852 (3d Cir.

3

2000).
4

Antol v. Perry, 82 F.3d 1291, 1296 (3d Cir. 1996).

Waiters, 729 F.2d at 235 (emphasis added); see also id.
(“Since we conclude that appellant’s current claim falls within
the scope of the prior investigation, and that appellant would be
entitled to sue on the complaint that led to that investigation,
appellant was free to bring this suit without further exhausting
her administrative remedies.”).
5

Ostapowicz v. Johnson Bronze Co., 541 F.2d 394, 398–99
(3d Cir. 1976). See also Robinson v. Dalton, 107 F.3d 1018, 1025
6

(3d Cir. 1997) (describing that even where an investigation was
“broadened by the EEOC” and included “events that occurred
after the filing of the informal complaint,” we concluded “there
was nothing to be served by requiring [claimant] to file a second
complaint”).
7

Ostapowicz, 541 F.2d at 399.

38a
Moreover, we liberally construe the scope of an
EEOC complaint when considering whether a
subsequent claim falls within the ambit of an earlier
claim: “In determining the content of the original
complaint for purposes of applying [relation back], we
keep in mind that charges are most often drafted by
one who is not well versed in the art of legal
description. Accordingly, the scope of the original
charge should be liberally construed.”8 Indeed, that is
precisely the situation here. The letter that led to the
EEOC’s eventual investigation was handwritten by
Simko, a lay plaintiff with no legal training or
experience. We have also previously concluded that
where the petitioner “attempted to amend his
[EEOC] charge,”9 but failed to do so, he could still
bring a civil action based on the charge that he
attempted to include. Even a failed attempt to amend
a charge “create[d] an excuse for the failure to file a[n
amended] charge.”10
We have established two factors to determine if a
claim of discrimination relates back to a prior claim.
We look to see whether the subsequent claim “(1)
falls within the scope of a prior EEOC complaint, or
(2) falls within the scope of the EEOC ‘investigation
which arose out of it.’”11 The first inquiry is
determined by the face of the complaint itself. To
resolve the second inquiry, we look at the content and
Hicks v. ABT Assocs., Inc., 572 F.2d 960, 965 (3d Cir.

8

1978).
9

Id. at 964.

10

Id.

11

Robinson, 107 F.3d at 1025 (citing Waiters, 729 F.2d at

235).

39a
results of the EEOC investigation to determine if the
new claim should “reasonably [have] be[en] expected
to grow out of the [initial] charge.”12
Here,
Simko
timely
filed
a
disability
discrimination claim against U.S. Steel.13 While that
claim was pending before the EEOC, he was fired.14
He subsequently wrote to the EEOC detailing his
belief that he was fired in retaliation for filing his
initial discrimination claim. He wrote, “I believe
anyone who familiarizes themself [sic] with the
details of the case will clearly see it as retaliation for
filing charges with the EEOC.”15 The EEOC then
expanded the disability discrimination investigation
to include retaliation.16 The EEOC notified U.S. Steel,
investigated the claim, found evidence of retaliation,
and attempted to conciliate the claim.17
Simko concedes that his initial complaint alleged
only disability discrimination and did not include a

Ostapowicz, 541 F.2d at 399. Some claims that were not
presented to the EEOC at all may still proceed in District Court
because we have held that the actual EEOC investigation does
not necessarily “set[] the outer limit to the scope of the civil
complaint.” Hicks, 572 F.2d at 966. We have allowed some of
these unexhausted claims to proceed so as not to punish the
claimant for a failure of the EEOC. We have concluded that “[i]f
the EEOC’s investigation is unreasonably narrow or improperly
conducted, the plaintiff should not be barred from his statutory
right to a civil action.” Id.
12

13

App. 33.

14

App. 25.

15

App. 80–81.

16

App. 84.

17

App. 106; App. 112–17.

40a
charge of retaliation.18 Accordingly, we must
determine whether the retaliation claim could
“reasonably [have] be[en] expected to grow out of the
[initial disability discrimination] charge.”19 As I
explain below, a number of factors govern that
reasonableness inquiry. These include the normal
course of EEOC investigations, whether the
petitioner attempted to amend the claim to include
the additional charge, and whether the claim was
actually investigated.
My colleagues’ analysis of the reasonableness of
the scope of the EEOC’s investigation is guided by
four cases: Hicks, Waiters, Antol, and Robinson.20 In
each of these cases, we considered whether claims
that petitioners brought for the first time before the
District Court (and that had not been filed with the
EEOC) could relate back to earlier discrimination
claims that each petitioner had properly filed with
the EEOC. Each petitioner in those cases claimed
that the new charge s/he filed related back to the
earlier-filed charge. Below, I discuss some the
principles that we can take from these cases. While
these cases are instructive, I realize that none of
them addressed the issue before us now—whether an
EEOC investigation was too broad and thus
unreasonable such that an actually investigated
claim should be prevented from proceeding in District
Court. I do not believe that the facts here justify
This, however, of course is true with any charge alleging
retaliation for filing a substantive discrimination charge
because the discrimination charge must predate the retaliation.
18

19

Ostapowicz, 541 F.2d at 399.

20

See Maj. Op. at 15–18.

41a
concluding that the
unreasonably broad.

EEOC’s

investigation

was

Indeed, we have cautioned that, in conducting an
inquiry into reasonableness, “[t]he individual
employee should not be penalized by the improper
conduct of the Commission.”21 We have also
reaffirmed the “sound and established policy that
procedural technicalities should not be used to
prevent Title VII claims from being decided on the
merits.”22 In short, errors by the EEOC should not
affect a claimant’s ability to pursue his or her claim.
II.
The petitioner in Hicks brought a claim before
the District Court alleging race and sex
discrimination even though he had only filed a race
discrimination charge with the EEOC. The District
Court concluded that it did not have “jurisdiction
over Hicks’s claims of sex discrimination because a
charge of such discrimination had not been filed with
the EEOC.”23 We reversed. We held that Hicks’
failure to formally file a sex discrimination charge
with the EEOC did not “preclude[] jurisdiction over
the sex discrimination claims.”24 That holding was
based upon two considerations. First, there was
evidence that Hicks “reasonably attempted to amend
his charge to include sex discrimination” but the

21

Hicks, 572 F.2d at 964–65.

Seredinski v. Clifton Precision Prods. Co., 776 F.2d 56, 65
(3d Cir. 1985) (quoting Gooding v. Warner-Lambert Co., 744
F.2d 354, 358–59 (3d Cir. 1984)).
22

23

Hicks, 572 F.2d at 963.

24

Id. at 964.

42a
EEOC erred in failing to amend the claim.25 This, we
found, “create[d] an excuse for the failure to file a sex
discrimination charge”26 regardless of whether Hicks
attempted to amend the charge within the statutory
filing period.27
Second, we concluded that there was a genuine
issue of material fact as to whether a properly
conducted EEOC investigation would have included
an inquiry into sex discrimination. Hicks alleged that
he was not contacted by the investigator until the
conclusion of the investigation.28 There was
“sufficient evidence to raise a fair inference that
Hicks would have told the EEOC investigator that he
believed that sex discrimination was a cause of the
disparate treatment alleged in his charge” had he
been contacted earlier.29
We concluded that if, on remand, the District
Court found either that (1) “the EEOC improperly
failed to accept an amendment to Hicks’s charge
which would have incorporated sex discrimination” or
(2) “a reasonable investigation of the charge as filed
would have encompassed the sex discrimination

25

Id.

26

Id.

Id. (“The record does not indicate whether the attempt to
incorporate sex discrimination in the EEOC charge was made
within the required 180-day statutory period. Our resolution of
the amendment issue in this case does not depend on whether
the amendment would have been filed within that time
period.”).
27

28

Id. at 966.

29

Id.

43a
claims” we would have jurisdiction over the sex
discrimination claim.30
As part of the inquiry into whether “the sex
discrimination claims [] would have been uncovered”
we noted that “there [wa]s a close nexus between the
facts supporting the claims of race and sex
discrimination,”31 which increased the likelihood that
they would have been uncovered. We also noted that
“evidence of the investigatory practices of the agency”
would help us “conclude whether a reasonable
inquiry would have reached Hicks’s allegations.”32
The petitioner in Waiters filed a sex
discrimination claim with the EEOC alleging that
she had been passed over for a position in favor of a
male applicant.33 One year later, she filed a second
claim with the EEOC alleging that her employer had
retaliated against her for filing that claim a year
earlier.34 The EEOC investigated the claim and found
that there was support for Waiters’ allegations, but
then the investigation was dropped: “no further
action was taken by the EEOC, [the] claim was never
finally adjudicated by the agency, and no right to sue
letter ever issued.”35 Waiters continued to work at the
30

Id. at 967.

31

Id.

Id. In Hicks we noted that we did not have such evidence
before us, so we could not consider whether the EEOC’s
investigatory practices supported an assertion of jurisdiction
over the unexhausted claim. Id. Fortunately, as my colleagues
note, we have the benefit of the EEOC’s guidance here.
32

33

Waiters, 729 F.2d at 235.

34

Id.

35

Id.

44a
same employer, but in a different department on a
different program. Approximately two years later,
while working on the new program, she was fired.36
Her employer alleged misconduct unrelated to the
conduct that her prior retaliation claim was based
upon.37 Rather than filing another retaliation claim
with the EEOC, she sued in District Court alleging
that she had been fired in retaliation for filing her
discrimination claims with the EEOC.38
The District Court dismissed her action based on
her failure to file a second retaliation charge with the
EEOC specifically related to her discharge. We again
reversed. We held that she need not have filed
another retaliation claim even though years had
passed since her prior claim and “the allegedly
discriminatory officials and acts [in her prior claim
we]re different” than the officials and acts that were
the subject of her retaliation claim filed in the
District Court.39 We held that even though the actors,
acts, and departments were different, “[w]here
discriminatory actions continue[d] after the filing of
an EEOC complaint . . . the purposes of the statutory
scheme [we]re not furthered by requiring the victim
to file additional EEOC complaints.”40 Our reasoning
rested upon two considerations. The “core
grievance—retaliation—[wa]s the same” between
Waiters’ new and prior charges. And “it [wa]s clear
that the allegations of the appellant’s complaint f[e]ll
36

Id. at 236.

37

Id.

38

Id.

39

Id. at 238.

40

Id. at 237.

45a
within the scope of the [EEOC’s] investigation of the
charges.”41 In other words, we found it relevant that
the EEOC had already actually investigated
retaliation against Waiters.
The Majority focuses on two aspects of our
decisions in Hicks and Waiters—the “close factual
nexus” in Hicks, and the similarity of the substantive
discrimination charges in Waiters—and concludes
that one or both of these factors must be present in
order for a subsequently filed claim to relate back.42
But, as I discuss below, neither opinion made either
factor a prerequisite, and in so concluding, the
Majority ignores other considerations that we found
relevant to the relation back analysis in those
decisions.
Several principles, in addition to those discussed
by the Majority, emerge from Hicks and Waiters.
First, there are multiple ways in which a petitioner
can demonstrate that an unexhausted claim is
reasonably within the scope of an earlier-filed claim.
As my colleagues recognize, a subsequent claim of
discrimination or retaliation may reasonably relate
back to an earlier-filed charge of discrimination if the
filed and unfiled claims share a close factual nexus.
But Hicks also establishes that “evidence of the
investigatory practices of the agency” are relevant to
our reasonableness determination.43 Stated another
way, evidence from the agency itself, such as EEOC
guidance showing that a properly conducted EEOC
investigation would or should have reached the
41

Id. at 238.

42

See Maj. Op. at 20.

43

Hicks, 572 F.2d at 967.

46a
unexhausted claim, can help a petitioner establish
that the unexhausted claim relates back to a properly
filed claim.
In addition, as my colleagues note, we consider
whether a prior and subsequent claim of
discrimination share the same core grievance in
determining if a subsequent claim relates back to the
prior claim. But we also look to see whether the
EEOC actually investigated the unexhausted claim.
The fact that the EEOC’s investigation of the charges
include the substance of the unexhausted claim helps
to establish that the claim reasonably fell within the
scope of the prior complaint.44 Finally, if a petitioner
attempts to amend a charge and the EEOC
erroneously fails to recognize the amendment, a
petitioner may be excused from filing a new charge
with the EEOC before bringing his or her claim
before the District Court.45
Our holding today is inconsistent with our
approach in Hicks and Waiters. Moreover, my
colleagues overlook that we have not previously held
that a claim that was actually investigated by the
EEOC was not reasonably within the scope of the
initial charge that gave rise to the investigation.
Although I agree that we can review the
reasonableness of a completed EEOC investigation, I
do not think my colleagues give sufficient weight to
Waiters, 729 F.2d at 238 (concluding that the
unexhausted claim was within the scope of the previous
complaint in part because “it [wa]s clear that the allegations of
the [District Court] complaint f[e]ll within the scope of the
[EEOC’s] investigation of the charges”).
44

45

Hicks, 572 F.2d at 967.

47a
the fact that the EEOC actually investigated and
attempted to conciliate Simko’s retaliation claim in
determining the reasonableness of that investigation.
Given our analysis in Hicks and Waiters, I am
persuaded that the investigation here was reasonable
and the investigation’s scope should not be viewed as
unreasonable merely because of the delay that
occurred.46
III.
Because “the EEOC has considerable expertise in
the area of employment discrimination,”47 I am not as
In other cases, we have emphasized the importance of the
EEOC actually having investigated the claim at issue. For
example, in Ostapowicsz, we found vital that “conciliation
discussions and proposals . . . between the Commission and the
employer” included the new charge that was at issue there. 541
F.2d at 399. We noted that had the new charge at issue not been
included in the investigation and conciliation efforts, “there
would be some force to the defendant’s contention that
Ostapowicz could not bring herself within the scope of the
EEOC charge.” Id. But because the new charge was included in
the conciliation efforts, we allowed it to proceed. Similarly, in
Waiters, we found it persuasive that “the allegations of the []
complaint f[e]ll within the scope of the [EEOC’s] investigation of
the charges.” 729 F.2d at 238.
46

Chacko v. Patuxent Inst., 429 F.3d 505, 510 (4th Cir.
2005); see also, e.g., Butler v. West, 164 F.3d 634, 642 (D.C. Cir.
1999) (The EEOC has “a measure of expertise and familiarity
with employment discrimination disputes that federal judges
cannot readily match.”); Muller Optical Co. v. EEOC, 743 F.2d
380, 395 (6th Cir. 1984) (“[T]he EEOC has developed
considerable expertise in the field of employment discrimination
since Congress created it by the Civil Rights Act of 1964.”);
Maskin v. Chromalloy Am. Corp., 1986 WL 4481, at *13 (E.D.
Pa. Apr. 14, 1986) (“The EEOC has special expertise in
investigating charges of discrimination, and its expertise should
not be ignored.”).
47

48a
willing as my colleagues to brush aside the EEOC’s
own conclusion that it was reasonable to include the
subsequent acts of retaliation in its investigation.
This is particularly true when we consider that
we liberally construe claims for the purpose of
relation back.48 In addition, “[c]ourts have generally
determined that the parameters of the civil action in
the District Court are defined by the scope of the
EEOC investigation . . . including new acts which
occurred during the pendency of proceedings before
the Commission.”49 It is also important to recall that
we “presume the regularity of the EEOC’s
investigation.”50 We should not lightly conclude that
the EEOC’s commitment of resources and time to an
investigation into discrimination was unreasonable.
Accordingly,
since
the
EEOC
actually
investigated Simko’s retaliation claim, we must begin
with the presumption that the investigation was
reasonable. And because “evidence of the
investigatory practices of the agency” are relevant to
determining “whether a reasonable inquiry would
have reached [any additional] allegations,”51 we must
also consider the EEOC’s general practices. These
practices offer further support for the reasonableness
of the investigation here.
As the Majority recognizes, EEOC investigators
are told to look for “evidence of retaliation during
their investigations, inform their supervisors in case
48

Hicks, 572 F.2d at 965.

49

Ostapowicz, 541 F.2d at 399–400.

50

Hicks, 572 F.2d at 966.

51

Id. at 967.

49a
such evidence surfaces, and notify the employer that
‘the scope may be expanded or limited based on
information received during the investigation.’”52
Indeed, the EEOC Manual states that “if it is found
during the investigation that the charging party has
been discriminated against because s/he filed the
charge, [the] EEOC may investigate the retaliation
issue based on the original charge.”53 Yet, my
colleagues dismiss the importance of this statement
in the Manual by focusing on the differences in the
initial allegations of discrimination and the
subsequent allegations of retaliation.54
I submit, however, that the EEOC’s policy is
eminently reasonable because even a minimally wellinformed employer in today’s marketplace knows
better than to admit that an employee was
terminated in retaliation for filing a claim of
discrimination. As we explained in Aman v. Cort
Furniture Rental Corp.,55 “[d]efendants of even
minimal
sophistication
will
neither
admit
discriminatory animus or [sic] leave a paper trail
demonstrating it.”56 All we need do is substitute
“retaliatory animus” for “discriminatory animus” to
appreciate the reasonableness of the EEOC’s policy
and the scope of its investigation.
Maj. Op. at 23 (citing EEOC Compl. Man. § 22.3, Scope of
Investigation).
52

See EEOCCM, § 2.8 Charges Warranting Priority
Handling, 2006 WL 4672924 (emphasis added).
53

54

See Maj. Op. at 24–25.

55

85 F.3d 1074 (3d Cir. 1996).

Id. at 1082 (quoting Riordan v Kempiners, 831 F.2d 690,
697 (7th Cir. 1987)) (internal quotation marks omitted).
56

50a
Neither party disputes that Simko’s initial
disability discrimination charge in May 2013 was
timely. While it was still pending before the EEOC,
U.S. Steel fired Simko allegedly for unrelated
reasons.57 In November 2014, a few months after
being fired, while the disability discrimination charge
was still pending before the EEOC, Simko wrote to
the EEOC stating his belief that he was fired “as
retaliation for filing charges with the EEOC.”58
Simko’s timely filed initial disability discrimination
claim, therefore, is the alleged basis of the retaliation
claim. It is difficult to see how the retaliation claim
cannot be said to have, at least in part, grown out of
the original charge. Absent the initial charge of
discrimination, there would be no basis for the
retaliation.
As is regular practice at the EEOC, and as is
explicitly contemplated by the EEOC guidance, an
EEOC investigator wrote back to Simko and
contacted U.S. Steel in November 2015 to inform U.S.
Steel that it was expanding its investigation into
retaliation and that a formal retaliation charge was
forthcoming.59 The EEOC investigated the retaliation
57
The mere fact that U.S. Steel claimed Simko was fired for
job performance is of little import for the reasons articulated in
Cort Furniture, supra.

App. 80–81. As noted above, I agree with my colleagues
that Simko’s argument that the November 2014 correspondence
should have been construed as a charge was forfeited because
counsel failed to raise it below. See Maj. Op. at 8–10. But, the
procedural default aside, as the EEOC itself recognizes, the
agency very likely erred in failing to construe the
correspondence as a formal charge.
58

59

App. 83.

51a
claim on-site at U.S. Steel in September 2018.60 And
in February 2019, the EEOC determined that there
was reasonable cause to believe U.S. Steel had
retaliated against Simko.61
Having actually investigated and attempted to
conciliate the retaliation claim, the EEOC fulfilled
the purpose of the exhaustion requirement. We have
previously stated that the “purpose of the filing
requirement is to enable the EEOC to investigate
and, if cause is found, to attempt to use informal
means to reach a settlement of the dispute.”62 That
happened here. U.S. Steel was a part of the EEOC’s
investigation of the retaliation claim, including when
the EEOC made a site visit.63 U.S. Steel therefore
was on notice of the investigation, invited to
conciliate, and understood that it was facing a
retaliation charge before Simko brought suit in
District Court.
All
of
these
factors
demonstrate
the
reasonableness of the investigation here and would
do so even absent the presumption of reasonableness
which attaches that investigation.64 Accordingly,
“there [is] nothing to be served by requiring [Simko]
to [have] file[d] a second complaint”65 other than
allowing U.S. Steel to escape any liability for conduct
60

App. 106.

61

A112–14.

Maj. Op. at 11 (citing Anjelino v. New York Times Co.,
200 F.3d 73, 93 (3d Cir. 1999)).
62

63

App. 106.

Hicks, 572 F.2d at 966 (“[C]ourts should presume the
regularity of the EEOC’s investigation.”).
64

65

Robinson, 107 F.3d at 1024–25.

52a
that Simko may be able to prove is illegal. Doing so
undermines the statutory purpose and regulatory
scheme of the EEOC. Because Simko’s “current claim
falls within the scope of the prior investigation, and
[he] would be entitled to sue on the complaint that
led to that investigation, [Simko] was free to bring
this suit without further exhausting h[is]
administrative remedies.”66
IV.
The Majority concludes that despite the fact that
the EEOC actually investigated and attempted to
conciliate the claim, it does not relate back to the
initial disability charge because it referenced events
that were discrete and remote from the events
referenced in the initial charge.67 But we have
previously rejected similar arguments and concluded
that claims may relate back even where they are
based on discrete events, occurring years apart.
In Waiters, 30 months elapsed between the initial
charge and the adverse employment action, but we
concluded that the claims related back. Just as U.S.
Steel and the Majority argue here, the defendant
there argued that the original charge and the
retaliation claim were very different—“different
officials are alleged to be responsible for the allegedly
discriminatory acts, more than thirty months passed
between the formal complaint and the discharge, and
the alleged retaliatory acts are of a different
nature.”68 The defendant therefore argued that this
66

Waiters, 729 F.2d at 235.

67

See Maj. Op. at 18–20.

68

Waiters, 729 F.2d at 238.

53a
“preclude[d] us from holding that the claim based on
the discharge is within the scope of the investigation
that arose from the formal complaint.”69 We
disagreed. We allowed the claim to proceed because
“it [wa]s clear that the allegations of the appellant’s
complaint fall within the scope of the district
director’s investigation of the charges.”70 This was
true even where “[t]he investigation clearly went
beyond the specific problem alleged in the formal
complaint.”71 So too here. Through no fault of Simko,
the EEOC delayed investigating his claims—and, to
its substantial credit, the EEOC concedes its error in
delaying the investigation of Simko’s claim.
Nevertheless, the retaliation claim was eventually
part of the agency’s investigation and U.S. Steel
participated in the investigation and conciliation
process.
The Majority also argues that the claims cannot
relate back because disability discrimination is
substantively different from retaliation. But we have
previously concluded that claims that differ in kind
may also relate back so long as they reasonably
would have been included in the investigation of the
initial charge. As described above, in Hicks we
concluded that a charge of sex discrimination could
relate back to a charge of race discrimination
because, had the EEOC properly investigated the
69

Id.

70

Id. (emphasis added).

Id. See also Ostapowicz, 541 F.2d at 399 (“The additional
charges filed during the pendency of the administrative
proceedings may fairly be considered explanations of the
original charge and growing out of it.”).
71

54a
claim, the petitioner would have put the EEOC on
notice of sex discrimination as well.72 Simko’s claims
are connected with a much stronger tether than those
in Hicks. Simko did communicate with the EEOC and
put the agency on notice of the retaliation claim—a
claim that was actually investigated. And although
the court in Hicks noted that part of the reason it
concluded the claims could relate back was because
both the sex and race discrimination claims arose out
of the same set of facts, here there is more to support
the reasonableness of the investigation than was
present in Hicks. Simko’s retaliation claim was
actually investigated by the EEOC; moreover, the
EEOC guidance instructs that investigations into
retaliation arising out of discrimination claims are a
normal part of the process and relate back to the
initial charge of discrimination; and finally, the
contemplated administrative process was fulfilled
when Simko and U.S. Steel were involved in the
investigation and conciliation process. As noted,
“[t]he purpose of the filing requirement is to initiate
the statutory scheme for remedying discrimination.
. . . Thus, the effect of the filing requirement is
essentially to permit the EEOC to use informal, nonjudicial means of reconciling the differences between
the charging party and an employer.”73
Additionally, as I have argued above, we must
not lose sight of the fact that claims of retaliation are
intrinsically tethered to claims of discrimination;
they rarely arise in a vacuum or in an environment
devoid of claims of discrimination. Indeed, this is
72

Hicks, 572 F.2d at 962.

73

Id. at 963 (citing Ostapowicz, 541 F.2d at 398.)

55a
precisely why the EEOC’s policy of allowing
investigations into substantive discrimination to
include allegations of retaliation is so eminently
reasonable. In fact, a contrary policy that would
preclude or discourage inquiries into whether an
employee alleging discrimination had suffered
retaliation would be unreasonable.
The Majority argues that considering the facts of
Simko’s disability discrimination claim in light of the
appropriate test demonstrates that any tether it has
to the retaliation claim is “conclusory” and does not
“actually exist[].”74 But in so arguing, my colleagues
appear to ignore the clear connection between the
two claims. Simko’s allegation that he was fired in
retaliation for filing a disability discrimination claim
means that his disability discrimination claim is both
a factual and legal basis for his retaliation claim.
Stated differently, his claim alleges that but for his
filing of a disability discrimination claim, he would
not have faced the allegedly retaliatory discharge.
Such a connection between the claims is hardly
“conclusory.”75 As I explain below, I agree with the
74

Maj. Op. at 21.

Curiously, on the one hand, the Majority agrees with the
“general proposition” that “retaliation charges are intrinsically
related to previous charges of discrimination,” Maj. Op. at 19
n.11, and it notes that a reasonable “investigation could []
inquire into whether any other adverse actions were taken
against [Simko] relating to his disability or his having filed a
charge,” id. at 19 (emphasis added), but, in the same sentence,
concludes that “a reasonable investigation in this case would not
have included an inquiry into Simko’s post-charge firing.” Id.
But if a reasonable inquiry could inquire into “[Simko] having
filed a charge,” and Simko alleges that his having filed a charge
is what caused his firing, then a reasonable inquiry would
75

56a
Majority that, due to our prior rejection of a per se
rule which would have made all retaliation claims
automatically relate back to the earlier claim upon
which they were based,76 a petitioner must show
more than the simple fact that he or she filed a
subsequent retaliation claim in order to be excused
from having to file a second formal charge with the
EEOC. But Simko has shown much more than that
here.
Concluding that Simko’s retaliation claim relates
back here would not run afoul of our prior rejection of
such a per se rule. It is not true that all such cases
will evidence the apparent nexus between a prior
discriminatory act and a subsequent discharge that
appears here. Here it is not simply the fact that
Simko alleged retaliation before the District Court
that causes his claim to relate back. He attempted to
amend his claim to include retaliation; he put the
EEOC on notice that he suspected retaliation was the
reason for his firing; and, of course, the EEOC
actually investigated the retaliation claim, issued a
right to sue letter, and attempted to conciliate the
claim. All of these are factors which we have
previously concluded support the reasonableness of

necessarily include “an inquiry into his post-charge firing.” That
is what our precedent says. See, e.g., Ostapowicz, 541 F.2d at
398-99 (Reasonable investigations may “includ[e] new acts
which occurred during the pendency of proceedings before the
Commission.”). And that is what the EEOC concluded when it
investigated the post-charge firing and found that Simko was
likely retaliated against.

See Maj. Op. at 13, 21 (citing Robinson, 107 F.3d at 1024,
and Waiters, 729 F.2d at 237 n.10).
76

57a
allowing an unexhausted claim to proceed.77 The fact
that Simko is alleging a retaliation claim (as opposed

77
Indeed, as the following two examples demonstrate, there
are other reasons why allowing Simko’s claim to relate back
here would not create a per se rule. For example, consider the
situation of a petitioner who files a timely race discrimination
claim with the EEOC, but later brings a retaliation claim before
the District Court that was not brought before the EEOC. If,
prior to filing in District Court, the petitioner (i) made no
attempt to amend her claim to include retaliation; (ii) did not
notify the EEOC that she suspected she was retaliated against
for filing the race discrimination claim; and (iii) the EEOC did
not actually investigate retaliation; the only tie to the prior race
discrimination claim would be the fact that the new claim before
the District Court was a retaliation claim. Although, as
described above, there is some inherent connection between a
retaliation claim and the substantive discrimination claim on
which it is based, consonant with our rejection of a per se rule,
this, on its own, would not be sufficient to show that the claim
was “within the scope of a prior EEOC complaint or the
investigation which arose out of it,” Waiters, 729 F.2d at 235,
and therefore, petitioner’s claim would fail.

Additionally, consider the situation in which an employee
alleges that she was retaliated against for supporting her
colleague’s disability discrimination claim. This retaliation
claim would not relate back to, for example, a prior sex
discrimination claim that the employee herself filed. It would
not relate back because the retaliation claim would not have
“grown out of the subject matter” of her earlier sex
discrimination claim. That retaliation claim would not depend
at all on the employee having first filed her sex discrimination
claim. Rather, the basis from which this retaliation claim flowed
would have been her support of her colleague’s disability
discrimination claim. By contrast, here, because the retaliation
is based on Simko’s own filing of a disability discrimination
claim in his case, it does arise, at least in part, out of the subject
matter of the initial charge. This, coupled with Simko’s case
specific circumstances outlined above, is enough to show that

58a
to another type of discrimination claim) before the
District Court only provides one added benefit—
because EEOC investigators are specifically
instructed to be alert to retaliation claims, the fact
that he alleges retaliation makes it more reasonable
to conclude that the investigation the agency
conducted into the retaliation was proper. But, of
course, not every litigant claiming retaliation will be
able to point to all of these additional factors in
support.78
Nevertheless, my colleagues press even further in
rejecting the argument raised by Simko and joined by
the EEOC that the retaliation claims relate back. My
colleagues conclude that “[e]ven if our exhaustion
inquiry turned on the actual—rather than
reasonable—scope of investigation arising from a
charge, Simko’s retaliation claim should still be
dismissed[.]”79 They argue that result must follow
because the investigation did not actually arise from
the disability discrimination charge. Rather, my
colleagues conclude that the investigation arose from
Simko’s November 2014 letter to the EEOC.80
However, based on our precedent and the actual
workings of EEOC investigations, that is a
the retaliation claim is properly within the scope of the
investigation of Simko’s initial charge.
Nor, however, are all of these additional factors
necessarily required. As we held in rejecting the per se rule in
Robinson, we must “examine carefully the prior pending EEOC
complaint and the unexhausted claim on a case-by-case basis” to
determine whether the unexhausted claim is reasonably within
the scope of the prior complaint. 107 F.3d at 1024.
78

79

Maj. Op. at 21.

80

Id.

59a
distinction without difference. I have already
explained that EEOC investigators are instructed to
look for retaliation in their investigations of
substantive discrimination claims and also explained
why that is so very reasonable. Communication with
the petitioner during the course of the investigation
is a routine and necessary part of such investigations.
In fact, we held that the EEOC erred when it failed to
communicate with the petitioner during the
investigation in Hicks.81 We concluded that had the
investigation been reasonable and proper, the EEOC
would have communicated with Hicks, and that it
was likely that communication would have put the
EEOC on notice of his additional claim of sex
discrimination.82 That is exactly what occurred here.
During the course of the EEOC’s investigation of
the discrimination claim, Simko put the EEOC on
notice of an additional claim of retaliation that arose
after he filed, and as a result of, his initial claim.
Such communication is not only contemplated by our
caselaw; it is encouraged by it and it is required by
the EEOC’s guidance. Thus, I fail to see how it was
unreasonable for the EEOC to inquire into any acts of
retaliation. Indeed, the EEOC would have been
derelict if it had not done so. The very fact that the
investigation arose from Simko’s November 2014
letter is actually evidence of its reasonableness. I do
not think we can so easily dismiss the EEOC’s
assessment of what is a reasonable investigation in
such cases.

81

Hicks, 572 F.2d at 966.

82

Id.

60a
The Majority next takes issue with the length of
time that the investigation took. And while the
EEOC has commendably and forthrightly admitted
that the prolonged delay was a mistake, that should
not defeat Simko’s claim; he did not cause the delay. I
do not dispute my colleagues’ claim that the length of
time that the investigation took is out of the
ordinary.83 However, there is nothing in the statute
or precedent that allows us to find that unreasonably
delaying an investigation is sufficient to overturn our
presumption that the investigation that was
conducted was reasonable. In fact, if anything, our
caselaw points to the opposite conclusion. We have
consistently maintained that where the EEOC errs,
we do not to allow the errors to adversely impact a
claim. For example, in Hicks we noted, “[t]he failure
of the EEOC to accept [an] amendment is . . . [a]
failure of the agency to follow the statute and its own
regulations,” but we concluded that “[t]he individual
employee should not be penalized by the improper
conduct of the Commission.”84 I cannot understand
why we now penalize Simko for the agency’s laxity.
And we have concluded that much more
egregious failures by the EEOC than simple delay do
not preclude a petitioner’s suit. For example, “failure
of the EEOC to give notice of a charge to the
employer involved or its failure to attempt
reconciliation, both of which are required by section
706(b) of Title VII, 42 U.S.C. [§] 2000e-5(b), does not
83

See Maj. Op. at 24 n.12.

Hicks, 572 F.2d at 964–65. See also id. at 966 (“We reject
such a limitation . . . [that would] ask[] the court to penalize a
plaintiff for the possible misconduct of the EEOC.”).
84

61a
bar a civil suit by the charging party.”85 This is
because an “individual’s right to bring a civil action
. . . should not be defeated by the EEOC’s failure to
comply with its statutory obligations.”86 Our holding
today is to the contrary.87
Finally, the Majority is concerned that failing to
dismiss
Simko’s
claim
could
encourage
gamesmanship in the claim filing process by allowing
a claimant to “greatly expand an investigation simply
by alleging new and different facts when he was
contacted by the [EEOC] following his charge.”88 But
that alleged risk is not at issue here. An individual
who alleges retaliation for the filing of a previous
charge is not “gaming the system,” because s/he is not
complaining of discriminatory conduct that arose
before the initial claim of discrimination. The
retaliation must necessarily come after the charge is
filed. Here, in the face of new alleged acts of
discrimination, Simko appropriately “includ[ed] [in
his charge] new acts which occurred during the
pendency of proceedings before the Commission.”89
V.
In sum, I believe that our precedent requires the
conclusion that it was quite reasonable for the EEOC,
85

Id. at 964 (emphasis added).

86

Id.

The Majority recognizes that it is “unfortunate” that “the
EEOC did not promptly react to his November 2014
correspondence,” Maj. Op. at 36, but then proceeds to do what
our caselaw warns against and punishes Simko for the EEOC’s
failure.
87

88

Maj. Op. at 23 (quoting Hicks, 572 F.2d at 967.).

89

Ostapowicz, 541 F.2d at 399.

62a
during the course of its investigation of Simko’s claim
of disability discrimination, after being alerted by
Simko about retaliation for the filing of the initial
charge, to also investigate the alleged retaliation.
That conclusion is reinforced here where the EEOC
guidance tells us that such retaliation investigations
are routine, and where the EEOC actually
investigated the discrimination, concluded that there
was evidence of retaliation, and attempted to
conciliate the dispute. Accordingly, I must
respectfully dissent from my colleagues’ analysis.

63a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
MICHAEL SIMKO,

CIVIL ACTION NO.
19-765

Plaintiff,
v.

JUDGE JOY
FLOWERS CONTI

UNITED STATES
STEEL CORP.,
Defendant.

[Filed 12/13/2019]

OPINION
Pending before the court is a motion to dismiss
this case in its entirety (ECF No. 6) filed by
defendant
United
States
Steel
Corporation
(“USSteel”), with a brief in support. Plaintiff Michael
Simko (“Simko”) filed a response and brief in
opposition to the motion (ECF Nos. 11, 12), USSteel
filed a reply brief (ECF No. 16). On October 17, 2019,
the court held oral argument on the motion and
requested further briefing. The supplemental briefing
was completed on December 2, 2019 (ECF Nos. 18,
19) and the motion is ripe for decision. The court
appreciates
the
thorough
and
professional
memoranda of law submitted by counsel for both
parties.
Factual and Procedural Background
The facts are taken from the complaint (ECF No.
1) and are accepted as true for the purpose of

64a
resolving the motion to dismiss. Simko began
working for USSteel on August 22, 2005. In August
2012, Simko was a larryman in the blast furnace
department at the Edgar Thompson plant in
Braddock, Pennsylvania, when he successfully bid for
a position as a spellman in the transportation
department.
During his spellman training, Simko sought an
accommodation for his hearing loss by requesting a
newer two-way radio. No accommodation was
provided. Simko’s trainer refused to approve the
completion of Simko’s spellman training because
Simko could not hear. Simko returned to his work as
a larryman in November 2012. (ECF No. 12-1).
Simko filed a charge with the EEOC alleging
violations of the Americans with Disabilities Act
(“ADA”), 42 U.S.C. § 12101 et seq. The charge of
discrimination was signed on May 24, 2013, and
received by the EEOC on May 28, 2013. On December
30, 2013, Simko was discharged (for the first time) for
a car having lost power. (ECF No. 12-9 at 2). On May
27, 2014, Simko entered into a Last Chance
Agreement and returned to work on June 1, 2014.
On August 19, 2014, Simko was discharged
again. USSteel stated the discharge was based on a
safety violation that occurred on August 15, 2014.
The initial discipline for the incident was a five-day
suspension, but it was converted into a discharge.
Complaint ¶¶ 19-20. Simko grieved the discharge.
The union withdrew the grievance.

65a
Included in the documents submitted by Simko in
response to the motion to dismiss1 is an undated2
handwritten letter to the EEOC stating, in relevant
part, that Simko believed his discharge was in
retaliation for filing charges with the EEOC. (ECF
No. 12-2 at 12-14). This letter is not referenced in the
complaint. There was no apparent action taken by
the EEOC for the next year.
The first reference by the EEOC to a retaliation
claim occurred in a letter from an investigator dated
November 23, 2015. (ECF No. 12-4). Counsel entered
an appearance with the EEOC on Simko’s behalf on
November 30, 2015, and on January 21, 2016,
submitted an amended charge to the EEOC, alleging
retaliation.3 (ECF No. 12-9). In the amended charge,
Simko stated that the latest date that discrimination
took place was “08-19-2014.” Id. The EEOC
investigated the retaliatory discharge claim. On
February 19, 2019, the EEOC issued a Determination
that USSteel retaliated because it disciplined Simko
more severely than a non-disabled comparator. (ECF
No. 12-14). The Determination did not clearly state
whether the retaliatory motivation was based on
Simko’s disability or his prior EEOC charge. Id.
EEOC documents may be considered in deciding a motion
to dismiss without converting the motion into one for summary
judgment. Branum v. United Parcel Serv., Inc., 232 F.R.D. 505,
507 n.1 (W.D. Pa. 2005).
1

Simko states in his brief that EEOC received this letter on
November 14, 2014. (ECF No. 12 at 8). The court will assume
the truth of this allegation.
2

USSteel argues that by filing this amended charge, Simko
concedes that his retaliatory discharge claim was not within the
scope of his original charge.
3

66a
Standard of Review
As set forth in Connelly v. Lane Construction
Corp., 809 F.3d 780, 786-87 (3d Cir. 2016):
A complaint may be dismissed under Rule
12(b)(6) for “failure to state a claim upon
which relief can be granted.” But detailed
pleading is not generally required. The Rules
demand “only ‘a short and plain statement of
the claim showing that the pleader is entitled
to relief,’ in order to ‘give the defendant fair
notice of what the ... claim is and the grounds
upon which it rests.’” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (quoting
Conley v. Gibson, 355 U.S. 41, 47 (1957)). “To
survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citation and internal quotation
marks omitted). “A claim has facial
plausibility when the plaintiff pleads factual
content that allows the court to draw the
reasonable inference that the defendant is
liable for the misconduct alleged.” Id.; see
also Sheridan v. NGK Metals Corp., 609 F.3d
239, 262 n. 27 (3d Cir. 2010). Although the
plausibility standard “does not impose a
probability requirement,” Twombly, 550 U.S.
at 556, it does require a pleading to show
“more than a sheer possibility that a
defendant has acted unlawfully,” Iqbal, 556
U.S. at 678. A complaint that pleads facts
“merely consistent with a defendant's liability
... stops short of the line between possibility

67a
and plausibility of entitlement to relief.” Id.
(citation and internal quotation marks
omitted). The plausibility determination is “a
context-specific task that requires the
reviewing court to draw on its judicial
experience and common sense.” Id. at 679.
Under the pleading regime established by
Twombly and Iqbal, a court reviewing the
sufficiency of a complaint must take three
steps. First, it must “tak[e] note of the
elements [the] plaintiff must plead to state a
claim.” Iqbal, 556 U.S. at 675. Second, it
should identify allegations that, “because
they are no more than conclusions, are not
entitled to the assumption of truth.” Id. at
679; see also Burtch v. Milberg Factors, Inc.,
662 F.3d 212, 224 (3d Cir. 2011) (“Mere
restatements of the elements of a claim are
not entitled to the assumption of truth.”
(citation and editorial marks omitted)).
Finally, “[w]hen there are well-pleaded
factual allegations, [the] court should assume
their veracity and then determine whether
they plausibly give rise to an entitlement to
relief.” Iqbal, 556 U.S. at 679.
At the final step, the court is to assume all well-pled
allegations to be true, construe those allegations in
the light most favorable to the plaintiff, draw all
reasonable inferences from them in favor of the
plaintiff, and ask whether they “raise a reasonable
expectation that discovery will reveal evidence” to
support the legal claim being asserted. Id. at *7.

68a
Legal Analysis
In the complaint, Simko asserts a single claim for
retaliation under the ADA in connection with his
second discharge in August 2014. USSteel contends
that the retaliation claim is time barred and must be
dismissed with prejudice.
Before a claimant may bring suit in federal court,
must exhaust his administrative remedies.
Robinson v. Dalton, 107 F.3d 1018, 1020–21 (3d Cir.
1997). In Pennsylvania, a verified charge must be
filed with the EEOC within 300 days of the alleged
unlawful employment practice. Urban v. Bayer Corp.
Pharm. Div., 245 F. App’x 211, 212 (3d Cir. 2007)
(citing Watson v. Eastman Kodak Co., 235 F.3d 851,
854 (3d Cir. 2000)). The United States Supreme
Court recently explained that a “charge-filing
requirement is a processing rule, albeit a mandatory
one, not a jurisdictional prescription delineating the
adjudicatory authority of courts.” Fort Bend Cty.,
Texas v. Davis, 139 S. Ct. 1843, 1851 (2019). The
Third Circuit Court of Appeals similarly instructs
that a nonjurisdictional claim-processing rule “still
has teeth.” Guerra v. Consol. Rail Corp., 936 F.3d
124, 135–36 (3d Cir. 2019).
he

To determine whether a charge alleging unlawful
termination was timely filed, the limitations period is
measured from the date on which the employee was
advised of his termination. Urban, 245 F. App’x at
213 (citing Delaware State College v. Ricks, 449 U.S.
250, 258 (1980); and Watson, 235 F.3d at 855). In this
case, 521 calendar days elapsed from the date Simko
was discharged until he filed an EEOC charge

69a
alleging
a
retaliatory
termination.
Simko
acknowledges that the 300-day filing period elapsed.
Simko contends however, that his amended
charge should be regarded as timely because: (1) the
limitations period should be equitably tolled when he
sent a handwritten letter to the EEOC complaining
about retaliation within three months of his
discharge (ECF No. 12-2), but the EEOC failed to
take action for over a year; (2) USSteel waived this
defense by not raising it sooner; and (3) the EEOC
rejected USSteel’s untimeliness defense. Simko also
argues that his retaliation claim relates back to his
original EEOC charge in 2013. Each of these
arguments will be addressed.
A. Equitable tolling
The handwritten letter4 (ECF No. 12-2) does not
constitute a “charge” and Simko does not contend
otherwise. The document is not verified, as required,
and did not cause the EEOC to initiate an
investigation. Urban, 245 F. App’x at 213 (citing
Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 265
(3d Cir. 2006). Although Simko was pro se at the
time, he knew how to file a proper EEOC charge
because he had done so in May 2013.5
4
The documents were produced by Simko’s counsel in the
format they were received from EEOC. The letter appears to be
part of a larger document because page one starts: “In closing
....” (ECF No. 12-2 at 12.) Simko is primarily complaining in the
letter about his first discharge in December 2013, the lack of
support from his union, and being brought back on a Last
Chance Agreement. Id. at 13.

Simko concedes that the May 2013 charge did not allege
retaliation. (ECF No. 12 at 8).
5

70a
The EEOC’s mere failure to act on the
handwritten letter does not justify equitable tolling of
the 300-day filing period. The court of appeals has
recognized three circumstances in which equitable
tolling would be appropriate: “(1) [W]here the
defendant has actively misled the plaintiff respecting
the plaintiff's cause of action, and that deception
causes non-compliance with an applicable limitations
provision; (2) where the plaintiff in some
extraordinary way has been prevented from asserting
his rights; or (3) where the plaintiff has timely
asserted his or her rights mistakenly in the wrong
forum.” Pizio v. HTMT Glob. Sols., 555 F. App’x 169,
176 (3d Cir. 2014) (citations omitted). None of these
circumstances apply in this case. Simko does not
allege that USSteel actively misled him. Simko was
not prevented in any way (let alone an extraordinary
way) from exercising his rights. Simko did not
explain why he could not have simply filed a timely
amended charge with the EEOC to assert a
retaliatory discharge. Finally, Simko did not timely
assert his rights in the wrong forum. In sum, under
the standard established by the court of appeals
there is no basis to equitably toll the limitations
period.
B. EEOC finding of timeliness/ waiver
It is well-settled that courts are not bound by the
EEOC’s view of whether a claim is timely filed.
Urban, 245 F. App’x at 213 (“our case law is clear
that ‘the EEOC’s belief as to the timeliness of a
charge is not determinative.’”) (quoting Kocian v.
Getty Ref. & Mktg. Co., 707 F.2d 748, 754 n. 9 (3d
Cir. 1983), overruled on other grounds by Colgan v.

71a

Fisher Sci. Co., 935 F.2d 1407, 1414 (3d Cir. 1991)
(en banc)).

It is equally clear that USSteel would not waive
this defense by failing to raise it with the EEOC. As
this court explained, “the non-adversarial, nonbinding nature of EEOC proceedings means that an
employer's failure to raise the timeliness issue before
the EEOC cannot have the binding effect of a
waiver.” Byrnes v. Herion, Inc.,757 F.Supp. 648, 653
(W.D. Pa. 1990) (“[W]e are unable to find any
authority for the proposition that a waiver under
these circumstances would be appropriate.”). In any
event, USSteel did, in fact, argue to the EEOC that
Simko’s retaliatory discharge claim was untimely
filed. (ECF No. 12-13).
In sum, the amended charge filed in January
2016 does not satisfy Simko’s administrative
prerequisites. USSteel’s defense that the amended
claim is untimely is cognizable and meritorious.
C. Whether the retaliation claim is within the
scope of Simko’s original charge
Simko argues that his retaliatory discharge claim
is within the scope of his original charge. Simko also
contends that his claim is cognizable because the
EEOC investigation in this case did actually address
retaliation, albeit not until two and a half years later.
These are the issues on which the court requested
supplemental briefing.
1. Third Circuit Court of Appeals precedent
The court notes, as an initial matter, that if court
of appeals precedential decisions are in conflict, it is
the older opinion that controls. Kossler v. Crisanti,

72a
564 F.3d 181, 194 (3d Cir. 2009) (“[t]his Circuit has
long held that if its cases conflict, the earlier is the
controlling authority and the latter is ineffective as
Pardini v. Allegheny
precedents.”)
(quoting
Intermediate Unit, 524 F.3d 419, 426 (3d Cir. 2008)).
An aggrieved employee is required to file a charge
to initiate the statutory scheme for remedying
discrimination. Hicks v. ABT Associates, Inc., 572
F.2d 960, 963 (3d Cir. 1978). Once the EEOC receives
a charge, it gives notice to the employer and
investigates whether there is reasonable cause to
believe that the charge is true. Id. If cause is found,
the EEOC must attempt to settle the dispute on an
informal basis. Id. If no reasonable cause is found, or
if reconciliation attempts prove futile, the charging
party is issued a right to sue letter. Id. In Waiters v.
Parsons, 729 F.2d 233 (3d Cir. 1984), the court
explained the underlying rationale for not requiring
that a new formal charge be filed if the new
allegations of discrimination are related to the
original charge: “Once the EEOC has tried to achieve
a consensual resolution of the complaint, and the
discrimination continues, there is minimal likelihood
that further conciliation will succeed.” Id. at 237.
Under these circumstances, the policy of promoting
conciliation would not be furthered by allowing the
defendants to delay having to answer in court for
additional discriminatory actions taken against an
employee for asserting her rights. Id. at 238.
As Simko recognizes, the oldest case to address
whether a new claim of discrimination relates back to
an earlier charge is Hicks. In Hicks, the court
adopted an objective test: “Once a charge of some sort
is filed with the EEOC, [ ] the scope of a resulting

73a
private civil action in the district court is defined by
the scope of the EEOC investigation which can
reasonably be expected to grow out of the charge of
discrimination.” 572 F.2d at 966 (emphasis added,
citations omitted). The court further explained that a
discrimination claim is within the scope of the charge
if, presuming a reasonable investigation had
occurred, the EEOC would have been informed of
that discrimination claim. Id. at 967.
The court cautioned that a mere finding that the
EEOC would have discovered a claim for
discrimination in the course of a reasonable
investigation “does not itself meet the standard.” Id.
A district court must further find that the claims
which would have been uncovered were reasonably
within the scope of the charge filed with the EEOC.
“Otherwise, the charging party could greatly expand
an investigation simply by alleging new and different
facts when he was contacted by the Commission
following his charge.” Id.
In Hicks, the employee’s original charge alleged
only race discrimination. The court held that there
was a genuine issue of fact about whether the
employee reasonably attempted to amend his charge
to include sex discrimination, which the EEOC
improperly refused to accept. Id. at 964. The court
noted that the amendment could relate back to the
original filing date even if the amendment was filed
beyond the 180-day deadline. Id. at 965. The court
emphasized that the alleged sex discrimination arose
“from the same acts which support claims for race
discrimination.” Id. The claim of sex discrimination
“Hicks says he tried to have incorporated in his
charge would have been ‘directly related to’ the facts

74a
in the original charge and thus would have related
back to the original filing date.” Id. In reasonably
investigating the charge of race discrimination, there
was a “fair inference that Hicks would have told the
EEOC investigator that he believed that sex
discrimination was a cause of the disparate
treatment.” Id. at 966.
The next relevant precedential decision of the
court of appeals was Waiters. In Waiters, the court
rejected the Fifth Circuit Court of Appeals’ per se
rule that all claims of retaliation are “ancillary” to
the original administrative complaint and therefore
no further EEOC complaint need be filed. 729 F.2d at
237 n. 10 (quoting Gupta v. East Texas State
University, 654 F.2d 411 (5th Cir. 1981)). Instead,
the court adopted a case-by-case approach under
which district courts must examine carefully the
initial charge and the additional claim to determine
whether a second charge should have been filed. See
Crawford v. Verizon Pa., Inc., 103 F. Supp.3d 597,
610 (E.D. Pa. 2015).
In Waiters, the initial complaint charged a
specific instance of retaliation for the filing of her
informal complaint a year earlier. The EEOC
investigation went beyond the specific problem
alleged in the formal complaint and found evidence of
retaliatory intent in a pattern of actions by the
employer. 729 F.2d at 238. The employee alleged that
her discharge (for which she did not file a new
charge) was the product of this same retaliatory
intent. The employer argued that the discharge claim
was not within the scope of the investigation because
different
officials
committed
the
allegedly
discriminatory acts, more than thirty months passed

75a
between the formal complaint and the discharge, and
the alleged retaliatory acts were of a different nature.
The court rejected this argument, and explained:
“While it is true that the allegedly discriminatory
officials and acts are different, the core grievanceretaliation-is the same and, at all events, it is clear
that the allegations of the appellant’s complaint fall
within the scope of the district director’s
investigation of the charges contained in the 1979
formal complaint.” Id. (emphasis added).
In Antol v. Perry, 82 F.3d 1291, 1295 (3d Cir.
1996), the court held that a charge of disability
discrimination did not encompass a new claim for
gender discrimination. The court explained that the
“specifics of his disability discrimination charge do
not fairly encompass a claim for gender
discrimination merely because investigation would
reveal that Antol is a man and the two employees
who received the positions are women.” Id. at 1296.
Because the EEOC investigation properly focused on
disability discrimination, neither the EEOC nor the
employer were put on notice of a gender
discrimination claim. Id. at 1296. The court explained
that the employee failed to exhaust administrative
remedies for his gender discrimination claim because
the EEOC was not afforded “the opportunity to settle
[the gender discrimination] disputes through
conference, conciliation, and persuasion, avoiding
unnecessary action in court.” Id. Antol distinguished
Waiters “because [in Waiters ] the core grievances in
the suit filed and the earlier EEOC complaint were
the same—retaliation.” Id. at 1295.
In Robinson v. Dalton, 107 F.3d 1018, 1024 (3d
Cir. 1997), the court of appeals provided additional

76a
guidance on how to determine whether a new claim
falls within the scope of the original charge. Robinson
described the Waiters decision as follows:
in Waiters we identified two circumstances in
which events subsequent to a filed complaint
may be considered as fairly encompassed
within that complaint, either where the
incident (1) falls within the scope of a prior
EEOC complaint, or (2) falls within the scope
of the EEOC “investigation which arose out of
it.” Id. at 235.6 We decided that the EEOC
investigation, which apparently had been
broadened by the EEOC, encompassed the
underlying conduct leading to the ultimate
discharge, and that there was nothing to be
served by requiring Waiters to file a second
complaint. Id.

Id. at 1025.
In Robinson, the EEOC expressly declined to
include the employee’s retaliatory discharge claim in
its investigation, even though the subject of his prior
complaints was used as a basis for the employer’s
decision to discharge him. Id. at 1025-26. The court
reiterated that the Third Circuit Court of Appeals
rejected the “per se” rule that all retaliation claims
fall within the scope of a prior charge, but courts
must examine carefully the prior pending EEOC
complaint and the unexhausted claim on a case-byIn Waiters, the court added the proviso “provided that the
victim can still bring suit on the earlier complaint.” 729 F.2d at
235. If a claim is bootstrapped to a prior EEOC charge that is
untimely, neither claim is properly before the court. Fenton v.
Port Auth. of NY & NJ, 777 F. App’x 45, 49 (3d Cir. 2019).
6

77a
case basis. Id. at 1024. The case was remanded for
further consideration. The Robinson decision
identified several factors:
Factors the district court may consider in
making this determination include 1)
whether the previous three complaints
alleged the same retaliatory intent inherent
in the retaliatory discharge claim, Waiters,
729 F.2d at 238, 2) whether the subject of
these previous complaints were used as a
basis for the Navy’s decision to terminate
Robinson; and 3) whether the EEOC should
have been put on notice of Robinson's claim of
retaliatory
discharge
and
therefore
investigated that claim, Hicks, 572 F.2d at
966. In light of our precedent, the court may
also want to reexamine whether there is
enough overlapping in Robinson’s subsequent
allegations with the earlier complaints that
this discharge complaint fairly falls within
the scope of the earlier complaints.

Id. at 1026.7
This court asked the parties to consider whether
the Third Circuit Court of Appeals’ test is objective or
subjective. In Hicks, the court held that the
parameters of the civil action are defined by the scope
In Robinson v. Consol Pennsylvania Coal Co. LLC, No.
2:18-CV-00555-NR, 2019 WL 6338464, at *7 (W.D. Pa. Nov. 27,
2019), the court recently explained that the test “turns on
whether there is a close nexus between the facts supporting
each claim or whether additional charges made in the judicial
complaint may fairly be considered explanations of the original
charge or growing out of it.”
7

78a
of the EEOC investigation which can “reasonably” be
expected to grow out of the charge. 572 F.2d at 966.
In Antol, the court similarly explained that the claim
must fall “fairly” within the scope of the prior EEOC
complaint. 82 F.3d at 1295. These decisions adopt an
objective test, that is not dependent upon the actual
scope of the EEOC investigation.

Waiters contains inconsistent language. It
purported to adopt the “fairly within the scope of the
prior EEOC complaint” test, citing Hicks. 729 F.2d at
237. The court also stated, however, that an employee
is not required to exhaust administrative remedies if
the incident “falls within the scope of a prior EEOC
complaint or the investigation which arose out of it.”
Id. at 235 (omitting a reference to “reasonably” or
“fairly”). Waiters recognized that the EEOC’s actual
investigation of retaliation was broader than the
original charge. Id. at 238. The decision in Robinson,
in describing Waiters, entirely omitted any reference
to charges “reasonably” and “fairly” arising from the
investigation. 107 F.3d at 1025. Robinson appears to
endorse a subjective test in which exhaustion is not
required when the charge was actually within the
scope of the EEOC’s investigation. The court of
appeals continues, however, to apply the objective
test. See Mandel v. M & Q Packaging Corp., 706 F.3d
157, 164 (3d Cir. 2013) (adopting “fairly within scope”
test and holding that original charge of sexual
harassment did not encompass claim of retaliation).
The court believes that these precedents can be
harmonized. The lesson of Waiters is that the EEOC
investigation of an original claim of retaliation will
necessarily encompass additional allegations of
retaliation, because it is the same “core grievance”

79a
(i.e., same kind of discrimination). The lesson of
Hicks and Robinson is that an EEOC investigation
could reasonably encompass different types of
discrimination if they are based on the same set of
underlying facts. The lesson of Antol is that a new
claim is not fairly within the scope of an EEOC
investigation if it is based on different facts and a
different kind of discrimination. As noted above, to
the extent that the decisions cannot be reconciled, the
older, objective standard set forth in Hicks and Antol
is controlling.
2. Application to this case
With this background, the court concludes, after
a careful analysis, that the conduct alleged by Simko
in the complaint in this case (i.e., retaliation in
connection with Simko’s second termination in
August 2014) is not fairly within the scope of his
original EEOC charge or the resulting investigation.
It is Antol, not Waiters, that is most analogous to this
case.
Simko’s complaint is based on a different kind of
discrimination than his original charge. Unlike
Waiters, the “core grievance” in Simko’s initial
charge did not involve retaliation – there was no
reference to retaliation in Simko’s original charge at
all. Simko’s original EEOC charge, as in Antol,
alleged
disability
discrimination
in
the
transportation
department
for
failing
to
accommodate Simko’s hearing loss for a position as a
spellman. (ECF No. 12-1).
Simko’s retaliatory discharge claim is also based
on different facts than his original charge. Simko’s
disability discrimination claim was relatively narrow

80a
and discrete. The two individuals identified in the
original charge were a trainer, Kevin Puckey, and a
supervisor, Brian Spiller, in the transportation
department. The alleged conduct was a failure to
accommodate his hearing loss by providing a newer
two-way radio. A timely investigation of the incident
involving the transportation department would not
have encompassed the alleged retaliatory discharge
alleged in the complaint in this case, which involved
different supervisors, a different department, and a
different, discrete safety violation incident. Simko’s
second discharge did not even occur until almost two
years later, in August 2014.8
The subject of the original EEOC charge (Simko’s
efforts to seek accommodation for his hearing loss)
was not cited by USSteel as the basis for either of his
discharges. As set forth in Simko’s amended EEOC
charge, he was discharged on December 30, 2013, for
a car having lost power. (ECF No. 12-9). He was
discharged a second time in August 2014 (the only
claim set forth in the complaint) for violating a last
chance agreement by failing to sign-out in two areas.
Id. In sum, as in Antol, the complaint in this case
alleges a different kind of discrimination and is based
on entirely different facts from the original charge.
There is no reason that the EEOC or USSteel would
have reasonably or fairly been put on notice and
The last sentence of ¶ 3 of the initial charge arguably
expands the scope of the hearing loss inquiry to include
November 2012, when “Gary Evans, Walking Boss, told [Simko]
that if [he] couldn’t hear, [he] must be disabled and should not
work anywhere in the plant.” (ECF No. 12-1 at 2). This fact does
not change the court’s analysis because it does not implicate
retaliation.
8

81a
investigated an alleged August 2014 retaliatory
discharge as part of its investigation of the 2012
alleged failure to accommodate Simko’s hearing loss.
Several courts have reached similar conclusions,
holding that nothing in the original charge could
have put the EEOC on notice of the employee’s later
retaliation claim. See Crawford, 103 F. Supp. 3d at
610; Thomas v. St. Mary Med. Ctr., 22 F. Supp. 3d
459, 471 (E.D. Pa. 2014) (employee failed to exhaust
retaliation claim because she failed to check the
“retaliation” box and presented no facts in support of
a retaliation claim in her initial charge); McGinnis v.
Donahoe, No. 12-1880, 2015 WL 507043 *12 (W.D.
Pa. Feb. 6, 2015) (retaliation and hostile work
environment claims not fairly within the scope of
original charge). In sum, the complaint must be
dismissed because Simko failed to exhaust his
administrative remedies regarding his retaliatory
discharge claim under applicable Third Circuit
precedent.
The court will briefly address Simko’s alternative
argument that exhaustion is excused because the
EEOC actually investigated his retaliation claim. In
this case, the EEOC did not conduct an unfairly
narrow investigation of Simko’s original charge in
May 2013 – instead, it apparently conducted no
investigation at all, for several years. In May 2015,
the EEOC began a belated investigation, Simko filed
an amended charge in January 2016 alleging
retaliation, and the EEOC eventually found the
discharge was retaliatory. The court in Hicks rejected
a standard that would penalize a plaintiff if the
“EEOC’s investigation is unreasonably narrow or
improperly conducted.” 572 F.2d at 966. This case

82a
presents the opposite situation – whether the
employer should be penalized if the EEOC’s
investigation is unreasonably broad (by addressing a
retaliation theory that was not reasonably within the
scope of Simko’s initial charge). The parties did not
cite any authorities addressing this particular
situation.
There are two fatal flaws with Simko’s argument.
First, the court of appeals in Hicks cautioned, in
adopting an objective test, that exhaustion of
remedies is not dependent on the actual scope of the
EEOC’s investigation. As the court explained:
“Otherwise, the charging party could greatly expand
an investigation simply by alleging new and different
facts when he was contacted by the Commission
following his charge.” Hicks, 572 F.2d at 967. Second,
under the circumstances of this case, the
investigation of Simko’s claim for retaliatory
discharge was untimely made. As the court recently
explained in Fenton, a new claim might relate back if
the employee can still sue on the original charge but
if a claim is bootstrapped to a prior EEOC charge
that is untimely, neither claim is properly before the
court. 777 F. App’x at 49. In this case, Simko has no
timely claim to which to bootstrap his retaliatory
discharge claim.
Conclusion
Simko’s complaint in this case seeks redress for
an alleged retaliatory discharge in August 2014.
Simko recognizes that he failed to file a charge of
retaliation with the EEOC within 300 days of that
discharge. For the reasons explained above, based
upon the undisputed record Simko’s amended charge

83a
is untimely and his retaliation claim is not within the
scope and does not relate back to his original EEOC
charge, which concerned a failure to accommodate his
hearing loss in August 2012.
Because
Simko
failed
to
exhaust
his
administrative remedies, any effort to amend the
complaint would be futile and inequitable. In
accordance with the foregoing, the motion to dismiss
(ECF No. 6) will be GRANTED and the complaint
will be dismissed with prejudice and without leave to
amend. The case will be marked closed.
An appropriate order follows.
December 13, 2019
BY THE COURT:
/s/ Joy Flowers Conti

Joy Flowers Conti
Senior United States District Judge

84a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
MICHAEL SIMKO,
Plaintiff,
v.

CIVIL ACTION NO.
19-765
JUDGE JOY
FLOWERS CONTI

UNITED STATES
STEEL CORP.,
Defendant.

[Filed 12/13/2019]

ORDER
AND NOW this 13th day of December, 2019, in
accordance with the memorandum opinion, it is
hereby ordered that the motion to dismiss (ECF No.
6) is GRANTED. The complaint is DISMISSED with
prejudice and without leave to file an amended
complaint. The case will be marked closed.
BY THE COURT:
/s/ Joy Flowers Conti

Joy Flowers Conti
Senior United States District Judge

85a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________
No. 20-1091
___________
MICHAEL SIMKO,
Appellant
v.
UNITED STATES STEEL CORP
_________________________________________
On Appeal from the United States District Court
for the Western District of Pennsylvania
(District Court No.: 2:19-cv-0075)
_______________________
SUR PETITION FOR REHEARING
_______________________
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, PHIPPS and RENDELL,1
Circuit Judges
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
1

Judge Rendell’s vote is limited to panel rehearing only.

86a
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Theodore A. McKee
Circuit Judge
Dated: May 11, 2021
SLC/cc: Counsel of Record

87a
APPENDIX E
RELEVANT STATUTORY PROVISIONS
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§§ 2000e et seq., provides in part as follows:
*

*

*

§ 2000e-5. Enforcement provisions
(a) Power of Commission to prevent unlawful
employment practices
The [Equal Employment Opportunity] Commission is
empowered, as hereinafter provided, to prevent any
person from engaging in any unlawful employment
practice as set forth in section 2000e-2 or 2000e-3 of
this title.
(b) Charges by persons aggrieved or member of
Commission of unlawful employment practices by
employers, etc.; filing; allegations; notice to
respondent; contents of notice; investigation by
Commission; contents of charges; prohibition on
disclosure of charges; determination of reasonable
cause; conference, conciliation, and persuasion for
elimination of unlawful practices; prohibition on
disclosure of informal endeavors to end unlawful
practices; use of evidence in subsequent
proceedings; penalties for disclosure of information;
time for determination of reasonable cause
Whenever a charge is filed by or on behalf of a person
claiming to be aggrieved, or by a member of the
Commission, alleging that an employer, employment
agency, labor organization, or joint labor-

88a
management committee controlling apprenticeship or
other training or retraining, including on-the-job
training programs, has engaged in an unlawful
employment practice, the Commission shall serve a
notice of the charge (including the date, place and
circumstances of the alleged unlawful employment
practice) on such employer, employment agency,
labor organization, or joint labor-management
committee (hereinafter referred to as the
“respondent”) within ten days, and shall make an
investigation thereof. Charges shall be in writing
under oath or affirmation and shall contain such
information and be in such form as the Commission
requires. Charges shall not be made public by the
Commission. If the Commission determines after
such investigation that there is not reasonable cause
to believe that the charge is true, it shall dismiss the
charge and promptly notify the person claiming to be
aggrieved and the respondent of its action. In
determining whether reasonable cause exists, the
Commission shall accord substantial weight to final
findings and orders made by State or local authorities
in proceedings commenced under State or local law
pursuant to the requirements of subsections (c) and
(d). If the Commission determines after such
investigation that there is reasonable cause to believe
that the charge is true, the Commission shall
endeavor to eliminate any such alleged unlawful
employment practice by informal methods of
conference, conciliation, and persuasion. Nothing said
or done during and as a part of such informal
endeavors may be made public by the Commission,
its officers or employees, or used as evidence in a
subsequent proceeding without the written consent of
the persons concerned. Any person who makes public

89a
information in violation of this subsection shall be
fined not more than $1,000 or imprisoned for not
more than one year, or both. The Commission shall
make its determination on reasonable cause as
promptly as possible and, so far as practicable, not
later than one hundred and twenty days from the
filing of the charge or, where applicable under
subsection (c) or (d), from the date upon which the
Commission is authorized to take action with respect
to the charge.
*

*

*

(e) Time for filing charges; time for service of notice
of charge on respondent; filing of charge by
Commission with State or local agency; seniority
system
(1) A charge under this section shall be filed within
one hundred and eighty days after the alleged
unlawful employment practice occurred and notice of
the charge (including the date, place and
circumstances of the alleged unlawful employment
practice) shall be served upon the person against
whom such charge is made within ten days
thereafter, except that in a case of an unlawful
employment practice with respect to which the
person aggrieved has initially instituted proceedings
with a State or local agency with authority to grant
or seek relief from such practice or to institute
criminal proceedings with respect thereto upon
receiving notice thereof, such charge shall be filed by
or on behalf of the person aggrieved within three
hundred days after the alleged unlawful employment
practice occurred, or within thirty days after

90a
receiving notice that the State or local agency has
terminated the proceedings under the State or local
law, whichever is earlier, and a copy of such charge
shall be filed by the Commission with the State or
local agency.
*

*

*

(f) Civil action by Commission, Attorney General,
or person aggrieved; preconditions; procedure;
appointment of attorney; payment of fees, costs, or
security; intervention; stay of Federal proceedings;
action for appropriate temporary or preliminary
relief pending final disposition of charge;
jurisdiction and venue of United States courts;
designation of judge to hear and determine case;
assignment of case for hearing; expedition of case;
appointment of master
(1) If within thirty days after a charge is filed with
the Commission or within thirty days after expiration
of any period of reference under subsection (c) or (d),
the Commission has been unable to secure from the
respondent a conciliation agreement acceptable to the
Commission, the Commission may bring a civil action
against any respondent not a government,
governmental agency, or political subdivision named
in the charge. In the case of a respondent which is a
government, governmental agency, or political
subdivision, if the Commission has been unable to
secure from the respondent a conciliation agreement
acceptable to the Commission, the Commission shall
take no further action and shall refer the case to the
Attorney General who may bring a civil action
against such respondent in the appropriate United

91a
States district court. The person or persons aggrieved
shall have the right to intervene in a civil action
brought by the Commission or the Attorney General
in a case involving a government, governmental
agency, or political subdivision. If a charge filed with
the Commission pursuant to subsection (b) is
dismissed by the Commission, or if within one
hundred and eighty days from the filing of such
charge or the expiration of any period of reference
under subsection (c) or (d), whichever is later, the
Commission has not filed a civil action under this
section or the Attorney General has not filed a civil
action in a case involving a government,
governmental agency, or political subdivision, or the
Commission has not entered into a conciliation
agreement to which the person aggrieved is a party,
the Commission, or the Attorney General in a case
involving a government, governmental agency, or
political subdivision, shall so notify the person
aggrieved and within ninety days after the giving of
such notice a civil action may be brought against the
respondent named in the charge (A) by the person
claiming to be aggrieved or (B) if such charge was
filed by a member of the Commission, by any person
whom the charge alleges was aggrieved by the
alleged unlawful employment practice. Upon
application by the complainant and in such
circumstances as the court may deem just, the court
may appoint an attorney for such complainant and
may authorize the commencement of the action
without the payment of fees, costs, or security. Upon
timely application, the court may, in its discretion,
permit the Commission, or the Attorney General in a
case involving a government, governmental agency,
or political subdivision, to intervene in such civil

92a
action upon certification that the case is of general
public importance. Upon request, the court may, in
its discretion, stay further proceedings for not more
than sixty days pending the termination of State or
local proceedings described in subsection (c) or (d) of
this section or further efforts of the Commission to
obtain voluntary compliance.
*

*

*

93a
The Americans with Disabilities Act of 1990, 42
U.S.C. §§ 12101 et seq., provides in part as follows:
Subchapter I – Employment
*

*

*

§ 12112. Discrimination
(a) General rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.
*

*

*

§ 12117. Enforcement
(a) Powers, remedies, and procedures
The powers, remedies, and procedures set forth in
sections 2000e-4, 2000e-5, 2000e-6, 2000e-8, and
2000e-9 of this title shall be the powers, remedies,
and procedures this subchapter provides to the
Commission, to the Attorney General, or to any
person alleging discrimination on the basis of
disability in violation of any provision of this chapter,
or regulations promulgated under section 12116 of
this title, concerning employment.
*

*

*

94a
Subchapter IV – Miscellaneous Provisions
*
§ 12203.
coercion

Prohibition

*

*

against

retaliation

and

(a) Retaliation
No person shall discriminate against any individual
because such individual has opposed any act or
practice made unlawful by this chapter or because
such individual made a charge, testified, assisted, or
participated in any manner in an investigation,
proceeding, or hearing under this chapter.
(b) Interference, coercion, or intimidation
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any individual in the exercise or
enjoyment of, or on account of his or her having
exercised or enjoyed, or on account of his or her
having aided or encouraged any other individual in
the exercise or enjoyment of, any right granted or
protected by this chapter.
(c) Remedies and procedures
The remedies and procedures available under
sections 12117, 12133, and 12188 of this title shall be
available to aggrieved persons for violations of
subsections (a) and (b), with respect to subchapter I,
subchapter II and subchapter III, respectively.
*

*

*

95a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
PITTSBURGH DIVISION
MICHAEL SIMKO,
Plaintiff,
v.

Civil Action No.
2:19-cv-765

UNITED STATES STEEL
CORPORATION,
Defendant.
COMPLAINT
AND NOW comes Michael Simko by and through
his attorneys, JULIAN LAW FIRM and JOHN E.
EGERS, JR., ESQUIRE and hereby alleges and
states as follows:
PRELIMINARY STATEMENT
1. The Plaintiff, Michael Simko (“Simko”) brings
this action against United States Steel
Corporation (“USS”) for violations of the
Americans with Disabilities Act of 1990 (“ADA”)
as amended by the ADA Amendments Act of 2008
(“ADAAA”),
42
U.S.C.§§12101
to
12213
(collectively the “ADA”).
2. USS retaliated against Simko in violation of the
ADA by terminating him in response to his
requests for reasonable accommodation and his
complaint(s) regarding violation of the ADA. As a

96a
result, Simko has suffered significant emotional
and monetary damages.
PARTIES
3. Simko is an adult male individual with a
residence address of P.O. Box 13, 1296
Bentleyville Road Van Voorhis, PA 15366.
4. USS is a Delaware Corporation with a corporate
headquarters located in Pittsburgh, Pennsylvania.
5. USS is an employer as defined by the ADA.
6. USS does business in multiple locations including
its Edgar Thompson Plant at 13th Street and
Braddock Avenue, Braddock, Pennsylvania 15104.
JURISDICTION AND VENUE
7. This Court has jurisdiction over this action
pursuant to 28 U.S.C. § 1331, in that this is a civil
action arising under the ADA.
8. Venue is proper under 28 U.S.C. § 1391(b)(1) and
(b)(2).
FACTS
9. USS began employing Simko on August 22, 2005.
10. In August of 2012, Simko held the larryman
position in the blast furnace department at USS’s
Edgar Thompson Plant.
11. That same month of August 2012, Simko
successfully bid on the position of spellman in the
transportation department.
12. During his spellman training, Simko requested an
accommodation for his hearing loss by requesting
a newer two-way radio from Brian Spiller, but this

97a
accommodation was never granted and no other
accommodations were offered or considered by
USS or its personnel.
13. Simko completed all parts of the required training
for the spellman position.
14. Simko’s trainer, Kevin Puckey refused to approve
the completion of Simko’s spellman training
because of his disability or because he was
regarded as being disabled because Simko could
not hear.
15. Simko had filed a charge with the Equal
Employment Opportunity Commission alleging
violations of the ADA on the basis that he was
denied employment as a spellman, denied
reasonable accommodation and returned to his
former job as a larryman because he was disabled
or regarded as being disabled because he could not
hear.
16. Simko’s charge of discrimination was signed on
May 24, 2013 and received by the EEOC on May
28, 2013 (and subsequently amended on January
22, 2016).
17. Thereafter, Simko was returned back to his
assignment as a larryman by USS until he was
discharged effective December 30, 2013.
18. On May 27, 2014, Simko entered into a Last
Chance Agreement with USS and his union and
returned to work on June 1, 2014.
19. Simko continued to work until August 19, 2014
when he was discharged a second time for what
USS said was a safety violation that occurred on
August 15, 2014.

98a
20. Simko’s initial discipline for this safety violation
of August 15, 2014 was initially a five-day
suspension, but was later converted to a
discharge.
21. Simko grieved the discharge, but his union
withdrew the grievance.
22. On February 19, 2019, the Equal Employment
Opportunity Commission (EEOC) issued a
Determination finding reasonable cause to believe
that unlawful employment practices occurred
under the ADA, specifically that USS retaliated
against Simko.
23. Although the EEOC invited the parties to engage
in conciliation, conciliation did not occur and a
Notice of Conciliation of Failure was issued by the
EEOC on March 13, 2019.
24. On April 1, 2019, the EEOC issued a Notice of the
Right to Sue to Simko.
25. This Complaint has been filed within ninety (90)
days of receipt of that Notice.
COUNT I – RETALIATION
26. Simko was an employee of USS as defined by the
ADA.
27. Simko was qualified for his position with USS
when he was fired on August 19, 2014.
28. Simko engaged in protective activity under the
ADA by requesting an accommodation and
subsequently filing a charge of discrimination
with the EEOC.

99a
29. USS subjected Simko to a materially adverse
action by converting a five-day suspension of
Simko for violation of safety rules to a permanent
discharge of his employment.
30. Simko’s discharge was an act of retaliation by
USS caused by Simko’s engagement in protected
activity.
31. USS’s reason for terminating Simko was
pretextual and baseless as USS discharged Simko
based on the fact that he requested
accommodation for his disability and filed a
charge of discrimination.
32. USS treated a comparator of Simko’s, Kenneth
Moses, differently in that it did not accelerate Mr.
Moses’s eventual termination for safety rules as it
did for Simko.
33. Simko has suffered damages as a result of USS’s
unlawful retaliatory actions including emotional
distress, past and future lost wages and benefits,
and the cost of bringing this action.
34. USS intentionally violated Simko’s rights under
the ADA with malice or reckless indifference and
as a result they are liable for punitive damages.
PRAYER FOR RELIEF
WHEREFORE, Simko
judgment as follows:

respectfully

requests

A. An acceptance of jurisdiction over this matter by
this Honorable Court;
B. Award Simko his past and future losses of wages
and all other benefits plus interest;

100a
C. Award Simko
damages;

compensatory

and

punitive

D. To order USS to reinstate Simko to a position
comparable to his former position without loss of
seniority or in lieu of his reinstatement, award
him front pay;
E. Award Simko all costs and reasonable attorney’s
fees incurred in connection with this action;
F. Grant Simko such additional and alternative
relief as this Honorable Court deems just and
proper.
DEMAND FOR JURY TRIAL
Simko demands a trial by jury on all claims
properly triable by a jury.
Respectfully submitted,
Date: June 28, 2019

JULIAN LAW FIRM
/s/ John E. Egers, Jr., Esquire
JOHN E. EGERS, JR., ESQUIRE
Attorney for Plaintiff,
Michael Simko
PA ID No. 89172
71 North Main Street
Washington, Pennsylvania 15301
724 228-1860
Facsimile: 724-225-9643
johnegers@julianlawfirm.com

